OIG SAR covers.qxd   5/28/10   8:58 AM   Page 1
OIG SAR covers.qxd     5/28/10      8:58 AM      Page 2




                                          Office of Inspector General


               Budget and Administration                              Inspector General
                     Human Resources                                       Deputy
                 Information Technology                               Inspector General
                                                                      Associate Deputy
                                                                      Inspector General
                                                                         Chief of Staff




                                   Office of Audit
                                   and Evaluation




                                                                       Economic and
          Systems Acquisition
                                            Audits                  Statistical Program
            and IT Security
                                                                         Assessment




         OIG Contacts                                                                     OIG Hotline
         Inspector General . . . . . . . . . . . . . . . . . . 202.482.4661               Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
         Office of Audit and Evaluation . . . . . . . . 202.482.2754                                                                                       or 800.424.5197
         Office of Investigations . . . . . . . . . . . . . . 202.482.0300                TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
                                                                                                                                                           or 800.854.8407
         Office of Counsel . . . . . . . . . . . . . . . . . . 202.482.5992
                                                                                          E-mail . . . . . . . . . . . . . . . . . . . . . . . . . . . . hotline@oig.doc.gov
         Legislative and Public Affairs . . . . . . . . . 202.482.4106

         More Information
         Visit www.oig.doc.gov to learn more about our activities, view or download reports and testimony, and sign up for e-mail alerts.
         E-mail website comments to oigweb@oig.doc.gov.
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page i




                                 Office of Inspector General

                               Semiannual Report to Congress



                                                         March 2010
v2 OIG SAR March 2010.qxd        5/28/10       8:56 AM       Page iii




                                                                   CONTENTS

              From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


              Major Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                     Decennial Census: Mitigate Issues with the 2010 Decennial

                     While Addressing Future Census Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                     Information Technology Security: Continue Enhancing the

                     Department’s Ability to Defend Its Systems and Data Against

                     Increasing Cyber Security Threats . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                     NOAA Environmental Satellites: Effectively Manage Technical,

                     Budgetary, and Governance Issues Surrounding the Acquisition

                     of NOAA’s Two Environmental Satellite Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                     American Recovery and Reinvestment Act: Meet the Challenges

                     of Accountability and Transparency with Effective Oversight of

                     Program Performance, Compliance, Spending, and Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     United States Patent and Trademark Office: Address the

                     Patent Office’s Resource and Process Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                     Other Issues Requiring Significant Management Attention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


              Recovery Act Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


              Work in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


              Agency Overviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                     Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                     Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                     National Institute of Standards and Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

                     National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                     National Telecommunications and Information Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

                     United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39


              Statistical Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41


              Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50


              Acronyms and Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page iv
v2 OIG SAR March 2010.qxd    5/28/10   8:56 AM    Page 1




                                            FROM THE

                                       INSPECTOR GENERAL 

              We are pleased to present the Department of                    siderable oversight of these areas, focusing primarily
              Commerce Office of Inspector General’s (OIG)                   on the 2010 Census, Recovery Act, and IT security.
              Semiannual Report to Congress for the 6 months
              ending March 31, 2010.                                         Another important area of work in this semiannual
                                                                             report was NOAA’s fisheries enforcement programs
              This report summarizes work we completed and ini­              and operations. At the request of the Under Secretary
              tiated during this semiannual period on a number               of Commerce for Oceans and Atmosphere, we evalu­
              of critical departmental activities. Over the past             ated the policies and practices of the Office of Law
              6 months, our office issued 20 audit and evaluation            Enforcement within NOAA’s National Marine
              reports addressing programs overseen by the Census             Fisheries Service and NOAA’s Office of General
              Bureau, National Institute of Standards and                    Counsel for Enforcement and Litigation. In January
              Technology (NIST), National Oceanic and                        2010, we reported that NOAA needs to exercise sub­
              Atmospheric Administration (NOAA), and National                stantially greater management and oversight of its
              Telecommunications and Information Administra­                 regional enforcement operations, as well as strength­
              tion. We also worked closely with independent                  en policy guidance, procedures, and internal controls
              auditors to ensure a timely audit of the Department’s          to address a common industry perception that its
              FY 2009 consolidated financial statements, resulting           civil penalty assessment process is arbitrary and
              in an unqualified audit opinion for the 11th consec­           unfair. NOAA responded with a comprehensive
              utive year.                                                    action plan to address our recommendations. We will
                                                                             continue to work with NOAA to track its progress in
              Our investigative activities during this semiannual            successfully implementing our recommendations and
              period resulted in $4 million in fines, restitution, and       to conduct follow-up work.
              judgments. This amount included more than
              $527,000 in restitution that a former United States            We look forward to working with the Department
              Patent and Trademark Office (USPTO) employee                   and with Congress in the months ahead to meet the
              and her co-conspirator were ordered to pay for their           many challenges facing Commerce. We thank the
              part in an embezzlement scheme. The defendants                 Secretary, senior officials throughout the Department,
              were each sentenced to 18 months in federal prison             and members of Congress and their staffs for their
              for their crime.                                               support of our work during this reporting period and
                                                                             for their receptiveness to our recommendations for
              We also issued our annual report on the Top                    improving Commerce operations.
              Management Challenges Facing the Department of
              Commerce. These challenges include the 2010
              Census, information technology (IT) security, acqui­
              sition of NOAA’s environmental satellites, accounta­
              bility and transparency of Recovery Act spending,
              and resource and process issues facing USPTO.
              During the semiannual period, we carried out con­              Todd J. Zinser




                                                                         1
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 2
v2 OIG SAR March 2010.qxd    5/28/10   8:56 AM    Page 3




                                    MAJOR CHALLENGES

                                   FOR THE DEPARTMENT

              The Reports Consolidation Act of 2000 requires
              inspectors general to identify the top management                      Top 5 Management Challenges
              challenges facing their departments. For FY 2010,                1. Decennial Census: Mitigate Issues with the
              Commerce OIG identified five challenges that                        2010 Decennial While Addressing Future
              require significant Departmental attention and four                 Census Challenges
              additional challenges that pertain to internal process­
                                                                               2. Information Technology Security:
              es and organization. Most of our audit and evaluation
                                                                                  Continue Enhancing the Department’s
              efforts this fiscal year concentrate in these areas. In
              planning our FY 2011 work, we are, for the first                    Ability to Defend Its Systems and Data
              time, conducting a formal risk assessment of                        Against Increasing Cyber Security Threats
              Commerce activities to identify those most in need               3. NOAA Environmental Satellites:
              of oversight.                                                       Effectively Manage Technical, Budgetary,
                                                                                  and Governance Issues Surrounding the
              These challenges are discussed below and reflect                    Acquisition of NOAA’s Two Environmental
              updates made since their initial publication in                     Satellite Systems
              January 2010.                                                    4. Recovery Act: Meet the Challenges of
                                                                                  Accountability and Transparency with
              1. Decennial Census: Mitigate Issues with                           Effective Oversight of Program Performance,
                 the 2010 Decennial While Addressing                              Compliance, Spending, and Reporting
                 Future Census Challenges                                      5. United States Patent and Trademark
                                                                                  Office: Address the Patent Office’s Resource
              The mission of the 2010 Census—to succeed in
                                                                                  and Process Issues
              counting each of the over 300 million people in more
              than 130 million households in the United States
              once, only once, and in the right place—is a massive           lion. The bureau cannot predict with certainty the
              undertaking with many moving parts. With a project­            public’s response rate and thus the total number of
              ed life-cycle cost estimate of $14.5 billion, the bureau       housing units that will have to be visited during this
              must integrate 44 separate operations (with a total of         phase. Census estimates that costs will increase by
              some 9,400 program- and project-level activities).             about $85 million for every percentage point of
                                                                             addresses that census takers have to visit.
              U.S. residents have by now received their forms, and
              the Census Bureau has built an extensive communi­              While much of the bureau’s plan appears to be on
              cations campaign and partnership program to                    schedule, the efficiency and accuracy of NRFU are at
              encourage a prompt and accurate decennial response.            some risk, and final decennial costs remain uncertain.
              The rate at which responses are returned will be crit­         The bureau’s ability to manage NRFU effectively, and
              ical in determining the overall cost of the census.            thus control its cost, hinges on two systems: the
              Households that do not mail back forms will be vis­            paper-based operations control system (PBOCS) and
              ited by an enumerator during nonresponse follow-up             the Decennial Applicant, Personnel, and Payroll
              (NRFU) operations. The most expensive decennial                System (DAPPS). Described by the bureau as the
              operation, NRFU is now estimated to cost $2.3 bil-             “nerve center” of its field offices, PBOCS manages


                                                                         3
v2 OIG SAR March 2010.qxd    5/28/10    8:56 AM    Page 4




              Major Challenges for the Department                                       March 2010—Semiannual Report to Congress



              enumerator assignments and provides current infor­               2. Information Technology Security:
              mation on enumerator productivity. DAPPS supports                   Continue Enhancing the Department’s
              recruiting, applicant, personnel, and payroll process­              Ability to Defend Its Systems and
              ing and is therefore also critical to the smooth func­
                                                                                  Data Against Increasing Cyber
              tioning of NRFU. Both systems support smaller early
              field operations such as those in rural areas where                 Security Threats
              Census leaves a form for households to mail back
              (known as update/leave), doorstep interviews occur­              Cyber attacks and other security threats persistently
              ring in places such as American Indian reservations              challenge the Department in ensuring information
              (update/enumerate), and counting residents living in             confidentiality, integrity, and availability. Commerce
              group situations and nontraditional households                   continues to invest in and otherwise enhance IT
              (group quarters enumeration, service-based enumera­              security, but more work is needed. The annual
              tion, and enumeration of transitory locations). Both             Performance and Accountability Report has reported
              systems have experienced problems in testing and,                IT security as a material weakness since FY 2001.
              more importantly, during field operations.                       Based on our FY 2009 FISMA assessments, we again
                                                                               recommended—and the Department agreed—that
              Census is on a very tight schedule to complete the               the material weakness remain until more improve­
              PBOCS capabilities needed for NRFU and to resolve                ments are made.
              existing problems. Once NRFU begins, the system
              has no margin for error. Yet PBOCS development                   We completed two United States Patent and
              and testing remain behind schedule, and frequent                 Trademark Office assessments during this reporting
              outages and slow performance are impacting early                 period. While both revealed improvements, we did
              operations. If not revamped for NRFU, these prob­                not have sufficient evidence of consistent, effective
              lems place the schedule and cost of this massive oper­           security practices to support removing USPTO’s IT
              ation at serious risk. As a core requirement with a              security material weakness. However, USPTO’s man­
              high level of uncertainty late in the decennial life             agement concluded that IT security issues had been
              cycle, PBOCS is one of the most significant decenni­             resolved and did not report the material weakness in
              al challenges facing the Department. While DAPPS                 its FY 2009 Performance and Accountability Report.
              also experienced outages and slow performance in
              early operations, a recent hardware upgrade appears              Our evaluations have focused on the Department’s
              to have significantly improved performance.                      process for planning, implementing, and assessing
                                                                               security controls, including continuous monitoring,
              To contain decennial costs, better management of                 for the more than 300 systems employed by various
              census fieldwork is essential. We found inefficiencies           operating units (including USPTO), each with its
              in wages, travel, and training during the address can­           own management structure. We found deficiencies in
              vassing operation. Given the significantly larger scale          security planning (including defining security require­
              of NRFU, Census must have effective internal con­                ments and implementing controls), assessments (leav­
              trols in place and ensure that managers meticulously             ing risks inadequately understood), vulnerability
              follow them during this operation.                               remediation (through required plans of action and
                                                                               milestones), and continuous monitoring. In recent
              Calendar year 2010 is also a critical time for the 2020          years we have increased our efforts to independently
              Census. The bureau must begin to develop its 2020                assess technical security controls and have consistent­
              decennial Census plans even though its workforce is              ly found vulnerabilities requiring remediation.
              already stretched thin by 2010 operations. Our work
              throughout the decade demonstrates that Census needs             We also found, in an FY 2009 audit, that the
              to identify more cost-effective approaches to the decen­         Department needs to improve the development,
              nial and seriously consider using such alternatives as           guidance, and performance management of its IT
              administrative records, the Internet, and targeted address       security workforce. The Department has taken posi­
              canvassing. These and other possible approaches could            tive steps in response, including plans to enhance
              contain costs while increasing accuracy and efficiency.          employee development and training as well as to


                                                                           4
v2 OIG SAR March 2010.qxd    5/28/10    8:56 AM    Page 5




              March 2010—Semiannual Report to Congress                                             Major Challenges for the Department



              require professional certifications for employees with           NOAA polar-orbiting operational environmental
              significant IT security responsibilities.                        satellite and the first JPSS satellite.

              3. NOAA Environmental Satellites:                                The transition to the restructured program will con­
                 Effectively Manage Technical, Budgetary,                      tinue into FY 2011. The JPSS program will continue
                                                                               to develop instruments needed to fulfill NOAA’s
                 and Governance Issues Surrounding
                                                                               responsibilities. The JPSS management structure will
                 the Acquisition of NOAA’s Two                                 be similar to GOES-R, in which NOAA manages the
                 Environmental Satellite Systems                               overall program with assistance from NASA. NOAA
                                                                               will acquire two JPSS satellites and will continue cli­
              NOAA is modernizing its environmental monitoring                 mate sensor acquisitions under the NOAA climate
              capabilities, in part by spending an estimated total of          program. Defense is evaluating the best approach for
              nearly $20 billion on two critical satellite systems: the        maintaining continuity of its polar satellites. It is crit­
              Joint Polar Satellite System (JPSS) and the                      ical that NOAA and Defense implement their satel­
              Geostationary Operational Environmental Satellite-               lite programs on schedule to reduce the risk of gaps
              R Series (GOES-R). Both JPSS’ predecessor pro­                   in coverage.
              gram, the National Polar-orbiting Operational
              Environmental Satellite System (NPOESS), and                     Budget increases, capability reductions, and delays
              GOES-R have a history of cost overruns, schedule                 have also plagued the GOES-R program. The project­
              delays, and reduced performance capabilities.                    ed cost has increased from $6.2 billion to $7.7 billion;
                                                                               a major sensor was removed; the number of satellites to
              As a result of the fall 2009 decision to significantly           be purchased was reduced from four to two; and the
              restructure the NPOESS program, JPSS was estab­                  launch readiness dates for the first two satellites have
              lished as NOAA’s component of the polar environ­                 slipped by 6 months to October 2015 and February
              mental satellite system, which is designed to provide            2017. The GOES-R system is intended to offer an
              global environmental data to monitor Earth, support              uninterrupted flow of high-quality data for short-range
              the nation’s economy, and protect lives and property.            weather forecasting and warning, as well as provide cli­
              JPSS is intended to meet a portion of the require­               mate research data through 2028. Working with
              ments originally established under the NPOESS pro­               NASA, NOAA is responsible for managing the entire
              gram. NPOESS was managed jointly by NOAA, the                    program and for acquiring the ground segment, which
              National Aeronautics and Space Administration                    is used to control satellite operations and to generate
              (NASA), and the Department of Defense, with                      and distribute instrument data products.
              NOAA and Defense equally sharing NPOESS costs.
              Under the restructuring, NOAA/NASA and Defense                   According to program documentation, overall
              will acquire satellites separately. The life-cycle cost          GOES-R program acquisition is on track and within
              estimate for JPSS is $11.9 billion.                              budget to meet the revised launch schedule.
                                                                               However, any further delays in the satellite’s launch
              At its 1995 inception, NPOESS planned to purchase                readiness will increase NOAA’s risk of not meeting its
              six satellites at a $6.5 billion cost, with a first launch       requirement to have an on-orbit spare and two oper­
              in 2008. But problems with a key sensor raised costs             ational GOES satellites available to monitor the
              and delayed the date of the first launch, even as the            Pacific and Atlantic basins in 2015.
              number of satellites in the system was reduced to
              four. In March 2009, with estimated life-cycle costs             Both the JPSS and GOES-R programs will continue
              totaling $14 billion, the first launch was delayed to            to require close oversight to minimize further disrup­
              2014 because of continuing sensor problems; the                  tion to programs and prevent any satellite coverage
              NASA-led NPOESS Preparatory Project (NPP)                        gaps, which could compromise the United States’
              launch date was also delayed, from 2010 to 2011.                 ability to forecast weather and monitor climate. Such
              NPP was planned as a risk-reduction effort to test               a compromise would have serious consequences for
              NPOESS’ new instruments in flight, but will now be               the nation’s safety and security.
              used operationally as a gap filler between the current


                                                                           5
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM    Page 6




              Major Challenges for the Department                                   March 2010—Semiannual Report to Congress



              4. American Recovery and Reinvestment                        The Recovery Act provided a relatively significant
                 Act: Meet the Challenges of                               funding increase for NIST and NOAA construction
                 Accountability and Transparency with                      projects. To complete them successfully, NIST and
                                                                           NOAA need to dedicate construction managers
                 Effective Oversight of Program
                                                                           across Recovery Act grants- , contracts- , and regular
                 Performance, Compliance, Spending,                        appropriation-funded projects. Our oversight will
                 and Reporting                                             focus on this high-risk area, including assessments of
                                                                           compliance with contract and grant requirements
              The Department continues to implement programs               and project results.
              under the Recovery Act, which provided Commerce
              with $7.9 billion. The OIG Recovery Act oversight            We recently reviewed the adequacy of key IT and
              priorities include agency and recipient reporting, the       operational controls of the primary (source) grants,
              Broadband Technology Opportunities Program                   contracts, and/or financial systems for Census, the
              (BTOP), and NIST and NOAA construction con­                  Economic Development Administration (EDA),
              tracts and grants.                                           NIST, NOAA, and NTIA to determine whether their
                                                                           controls ensure that the Commerce reports posted on
              The sheer amount of Recovery Act money received
                                                                           Recovery.gov are complete, accurate, and reliable.
              by Commerce, coupled with the act’s unique require­
                                                                           Generally, the Commerce systems we reviewed had
              ments, makes ensuring appropriate spending—while
                                                                           adequate data input/edit controls. However, the lack
              also providing economic stimulus as quickly as possi­
                                                                           of automated data transmission or interfaces from the
              ble—a particular challenge. Commerce operating
                                                                           grants systems to Commerce’s financial system could
              units must spend funds appropriately with little time
                                                                           lead to errors.
              to prepare for the many new and expanded programs,
              grants, and contracts established under the act.
                                                                           Without additional automation, it will be more diffi­
              As of March 31, 2010, the Department had obligat­            cult for Commerce operating units to effectively
              ed approximately $2.8 billion and spent approxi­             manage their own reporting with the increased vol­
              mately $890 million. Although spending volumes are           ume of grants and contracts. Ensuring complete and
              relatively low, all funds must be obligated by               accurate recipient reporting will also be difficult.
              September 30, 2010. The need to distribute funds             Additional automation would add reporting process
              quickly to communities and businesses increases the          efficiencies and would decrease the risks of reporting
              risks of fraud, waste, and abuse in both Recovery Act-       errors and delays.
              funded activities and those Commerce operations
              with more traditional funding mechanisms. Recovery           OIG identified several concerns in the BTOP pre-
              Act operating units need sufficient resources to             award process and expressed concern with whether
              ensure that programs deliver as intended, while pro­         NTIA has identified and obtained needed resources
              viding oversight to guard against misuse of funds.           to execute a grant program of BTOP’s magnitude in
                                                                           the Recovery Act’s timeframe. According to the act,
              The Recovery Act substantially increases the                 BTOP must spend all of its $4.7 billion in grant
              Department’s contracting and grants workload, par­           funding by September 30, 2010. Over the next 6
              ticularly at NIST and NOAA, whose grants and con­            months, NTIA must address several challenges as it
              tracts offices must manage not only the more than            concurrently monitors first-round grant awards and
              $1.4 billion they received under the Recovery Act,           issues new awards. Challenges include (1) coordinat­
              but the $4.7-billion BTOP program as well. NTIA              ing with other federal organizations supporting con­
              relies on NIST and NOAA for grants administration            tract and grants management and (2) overseeing
              because it does not have its own staff and systems for       contractors implementing BTOP. In the next semian­
              this purpose. Such increases place added pressure on         nual period, we will issue a report detailing our con­
              these operating units to hire and retain qualified           cerns with BTOP’s program management and
              personnel.                                                   pre-award process.




                                                                       6
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 7




              March 2010—Semiannual Report to Congress                                         Major Challenges for the Department



              A detailed discussion of OIG’s Recovery Act over­             mated that it would collect over $1.8 billion in patent
              sight begins on page 9.                                       fees. However, by the end of that year, patent fee col­
                                                                            lections totaled just over $1.6 billion. Multiple fac­
              5. United States Patent and Trademark                         tors contributed to the difference, including a
                 Office: Address the Patent Office’s                        reduction in the number of patent applications filed
                 Resource and Process Issues                                and a decline in maintenance fees collected for exist­
                                                                            ing patents. To align expenses with actual patent fee
              With an enacted budget of $1.7 billion in FY 2010             collections, USTPO deferred hiring patent examiners
              and a $2 billion FY 2011 budget request for patent            and curtailed or suspended overtime and training.
              operations, USPTO continues to struggle with                  USPTO currently projects a FY 2010 surplus, but
              increasing patent backlogs and the need to improve            does not have authority to spend above its legislative­
              patent examination efficiency and quality.                    ly mandated appropriation ceiling.

              Since FY 2000, the number of patent examiners has             Potential fee shortfalls and fluctuations introduce
              more than doubled, from 2,900 to 6,200. But the               inherent instability to the funding structure. This
              length of time to process a patent has increased 40           unstable structure increases the risk to USTPO’s abil­
              percent from 25 to 35 months. Further, the backlog            ity to operate effectively in current and future years,
              of applications awaiting review increased 139 per­            and its capacity to ensure that America’s intellectual
              cent, from 308,000 to 736,000.                                property system encourages investment in innovation
                                                                            and contributes to a strong global economy. More
              Over the years, USTPO has increased the number of             immediately, USTPO may not be able to process as
              patent examiners to address the growing backlog;              many patent applications, which will add to the
              however, simply adding to the workforce will not suf­         backlog instead of working toward reducing it. In
              fice. USPTO must consider how to reform and                   effect, fewer maintenance fees will be available to col­
              reengineer various components of the patent applica­          lect in the future because fewer patents are being
              tion process and must update its IT systems to ensure         issued today.
              timely and high-quality application review.
                                                                            The Under Secretary of Commerce for Intellectual
              USPTO must also address funding mechanisms and                Property, who is also the Director of USPTO, has
              fee structure challenges. USPTO is now funded                 publicly acknowledged these and other difficulties. A
              entirely by application, maintenance, and other fees          5-year plan in the President’s FY 2011 budget sets
              paid by patent and trademark applicants and owners.           forth bold goals, such as reducing the time it takes for
              Congress sets many of the fees legislatively and estab­       initial patent application review to 10 months (from
              lishes a ceiling, through the appropriations process,         the present 26 months) by FY 2013. Similarly, by
              for the maximum amount of fees USTPO can spend                FY 2014, USPTO’s goal to decide a patent applica­
              in a given year. For FY 2011, the Administration pro­         tion is 20 months, down from the present 35.
              poses a 15-percent increase in certain patent fees to
              generate additional revenue to cover operating                Other Issues Requiring Significant
              expenses. It also proposes that USTPO have authori­           Management Attention
              ty to set fees and to establish an operating reserve to
              manage operations on a multiyear basis.                       Centralized Management and Oversight

              In November 2008, our Top Management Challenges               The Department must continue to centralize man­
              report suggested that USTPO’s unique financing                agement and oversight to make Departmental opera­
              structure could become increasingly risky.                    tions more efficient, consistent, and productive. The
              Subsequent downturns in the U.S. and global                   Department’s operating units have long-standing and
              economies quickly showed the structure’s vulnerabil­          independent business models, cultures, and practices.
              ities. In the President’s FY 2009 budget, USPTO esti­         This decentralized structure has hindered




                                                                        7
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM    Page 8




              Major Challenges for the Department                                   March 2010—Semiannual Report to Congress



              Department efforts to integrate and administer inter­        NOAA Headquarters Leadership Structure
              nal processes such as financial services, human
              resources, grants and contracts management, IT, and          NOAA continues to face the challenge of carrying
              major acquisitions. Increased centralization has the         out its multifaceted mission to understand and pre­
              potential to yield cost savings.                             dict changes in Earth’s environment and to conserve
                                                                           and manage coastal and marine resources to meet our
              In 2009, Commerce awarded over $2.2 billion in               nation’s economic, environmental, and recreational
              grants to some 4,000 recipients, and over $3.2 billion       needs. NOAA is realigning its headquarters leader­
              in contracts to more than 7,000 contractors. Five sep­       ship structure to streamline decision making and pro­
              arate bureaus administer grants and contracts using          vide greater policy-level attention to day-to-day
              three different grants systems and four different pro­       management and oversight of its programs. The
              curement systems. Additionally, the Department’s             realignment is intended to provide additional strate­
              Office of Acquisition Management has only limited            gic guidance and leadership direction for NOAA’s
              authority over the agency’s grants and procurement           stewardship responsibilities, including fisheries.
              offices, which further contributes to the
              Department’s inconsistent management approaches              One of the key mission components is management,
              and adds to difficulty overseeing operations and pro­        research, and services related to the protection and
              grams effectiveness.                                         rational use of living marine resources. Our 2008 Top
                                                                           Management Challenges report discussed NOAA’s
              Contracts and Grants Management Workforce                    need to balance conservation and commercial fishing.
                                                                           Over the past year, we have issued two reports that
              Sufficient contracts and grants management work­             demonstrate, in particular, the difficulty of achieving
              force staffing has been a long-standing issue for the        this balance. In the first report, we evaluated a series
              Department. Now, primarily as a result of the                of issues regarding the work and scientific methods of
              Recovery Act, the Department and its operating units         the National Marine Fisheries Service’s (NMFS)
              issue more grants and contracts than ever.                   Northeast Fisheries Science Center. The second
                                                                           report, recently completed, assesses the policies and
              According to Department data, more than 1,500
                                                                           practices of the Office of Law Enforcement within
              Commerce employees hold certifications in various
                                                                           NMFS and NOAA’s Office of General Counsel for
              acquisition positions. While the Department does
                                                                           Enforcement and Litigation.
              not track the number of grants personnel, we recent­
              ly conducted a survey of the sufficiency and qualifi­        Commerce Headquarters Renovation
              cations of the Recovery Act acquisition and grants
              workforce. Based on our survey, the grants workforce         The Department’s headquarters, the General Services
              for the five Commerce operating units receiving              Administration (GSA)-owned Herbert C. Hoover
              Recovery Act funding totaled over 800 employees.             Building in Washington, D.C., is undergoing an
              This includes grant officers, grants program man­            extensive renovation. The renovation will take about
              agers, and grants specialists.                               13 years and is estimated to cost almost $960 million.
                                                                           The project is being funded mostly by GSA and the
              Despite these numbers, however, a serious shortage of        Recovery Act. Because of its scale, the renovation has
              skilled, specially trained staff hampers the                 the potential to disrupt Commerce operations and
              Department’s ability to appropriately issue and over­        affect its workforce. Accordingly, the Department has
              see grants and contracts. To ensure that grants and          a primary interest in ensuring that the renovation is
              contracts are issued effectively and funds are proper­       completed on time, within budget, and free of fraud.
              ly spent, the Department must build up the size and          To meet this goal, Commerce and GSA need to pro­
              skill of this workforce and improve its oversight            vide comprehensive oversight throughout the pro­
              processes.                                                   ject’s life cycle.




                                                                       8
v2 OIG SAR March 2010.qxd        5/28/10       8:56 AM          Page 9




                                 RECOVERY ACT OVERSIGHT
              On February 17, 2009, the President signed the                                   Technology Opportunities Program (BTOP), NOAA
              American Recovery and Reinvestment Act (Recovery                                 and NIST construction contracts and grants, ongo-
              Act) into law. The statute requires an unprecedented                             ing obligations and spending, and the accuracy and
              amount of transparency and accountability and sets                               timeliness of Department and recipient reporting.
              out specific responsibilities for OIG to oversee the
              Department’s Recovery Act activities and spending.                                   Figure 1: Commerce Stimulus Funding by
                                                                                                   Operating Unit
              The Department of Commerce—five operating units
              and OIG—received $7.9 billion under the act, which                                   NTIA . . . . . . . . . . . . . . . . . . . . . . $5.3 billion
              nearly matches the Department’s annual appropria-                                    Census . . . . . . . . . . . . . . . . . . . . . . 1.0 billion
              tion (see Figure 1). As of March 31, 2010, the
              Department had obligated approximately $2.8 bil-                                     NOAA . . . . . . . . . . . . . . . . . . . . . 830 million
              lion and spent approximately $890 million (see                                       NIST . . . . . . . . . . . . . . . . . . . . . . 610 million
              Figure 2). Operating units believe they are on track to
              meet the Recovery Act deadline of September 30,                                      EDA . . . . . . . . . . . . . . . . . . . . . . .150 million
              2010, to obligate funds.                                                             OIG . . . . . . . . . . . . . . . . . . . . . . . .16 million
              Our oversight program focuses on the highest-risk                                    Total . . . . . . . . . . . . . . . . . . . . . $7.9 billion
              aspects of the Recovery Act, including the Broadband

              Figure 2: Commerce Operating Units’ Recovery Act Spending as of March 31, 2010

                                                  NOAA               $12M
                Procurement, Acquisition, and Construction              $58M                                                 Total Disbursements
                                                                                                                             Total Obligations
                                                    NOAA                   $58M
                         Operations, Research, and Facilities                             $214M

                                                    NIST             $8M
                         Construction of Research Facilities                              $195M

                                                       NIST          $21M
               Scientific and Technical Research and Services                 $113M

                                                   NTIA                                           $332M
                               DTV Converter Box Program                                          $338M

                                                   NTIA               $25M
              Broadband Technology Opportunities Program                                                                                                 $1.18 billion

                                                     Census                                                     $427M
                                                2010 Census                                                        $539M

                                                                     $7M
                                                   EDA                            $148M
                Economic Development Assistance Program
                                                                $0                 $250,000,000           $500,000,000       $750,000,000        $1,000,000,000

              Data as reported on Recovery.commerce.gov. Per OMB standards, interagency transfers of $358M and a DTV rescission of $128M are
              not included and would impact obligation amounts.


                                                                                           9
v2 OIG SAR March 2010.qxd      5/28/10     8:56 AM   Page 10




              Recovery Act Oversight                                                March 2010—Semiannual Report to Congress



                                     Highlights of OIG Recovery Act Oversight Activities



                Monitoring                                                  OIG Recovery Act Work Plan

                Obligations/Spending                                        ■   Issued OIG Recovery Act Agency and
                                                                                Program Oversight Plan (FY 2010)
                ■   Monitored departmental obligations/spending

                Recipient Reporting
                                                                            Audit and Evaluation
                ■   Monitored quarterly recipient reporting
                                                                            Published Reports

                                                                            ■   More Automated Processing by Commerce
                Outreach and Training                                           Bureaus Would Improve Recovery Act
                                                                                Reporting (ARR-19779)
                ■   Trained more than 650 Commerce employ­
                    ees and briefed potential grant recipients in           ■   Commerce Has Implemented Operations to
                    18 sessions on:                                             Promote Accurate Recipient Reporting, but
                                                                                Improvements Are Needed (ARR-19847)
                    ■   Transparency and accountability in grants
                        management                                          ■   Improvements Recommended for Commerce
                                                                                Pre-Award Guidance and NIST and NOAA
                    ■   Transparency and accountability in                      Processes for Awarding Grants (ARR-19841)
                        broadband grants
                                                                            ■   Review of Contracts and Grants Workforce
                    ■   Fraud prevention                                        Staffing and Qualifications in Agencies
                                                                                Overseeing Recovery Act Funds (for Recovery
                    ■   Fraud indicators
                                                                                Accountability and Transparency Board)


                Congressional Communications                                Selected Work In Progress

                ■   IG’s letter to Senator Pryor on Recovery Act            ■   Continued review of pre-award grant
                    oversight activities, February 19, 2010                     processes for NTIA’s BTOP

                ■   IG’s letter to Senators Mikulski and Shelby on          ■   Commenced review of performance
                    status of NTIA’s BTOP, January 22, 2010                     measurement of certain NIST and NOAA
                                                                                Recovery Act programs
                ■   Congressional briefings on Recovery Act pro­
                    grams, including BTOP and NOAA/NIST                     ■   Commenced review of Commerce
                    contract and grant awards                                   headquarters renovation


                            Visit www.oig.doc.gov/recovery/ for more information about OIG Recovery Act activities.




                                                                      10
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 11




              March 2010—Semiannual Report to Congress                                                       Recovery Act Oversight



              Completed Reports                                              recommended more automation to review data, par­
                                                                             ticularly as the volume of grants and contracts signif­
              The Recovery Act established specific reporting                icantly increases. The operating units indicated they
              requirements for both agencies and fund recipients.            would monitor the efficiencies and effectiveness of
              Weekly, federal agencies must report key information           their reporting processes and supplement their review
              such as awards, obligations, outlays, and major activ­         process with additional automation if their manual
              ities to the public web portal Recovery.gov. Quarterly,        process did not ensure quality results as volumes
              fund recipients must report to Recovery.gov on their           increase. (For more information about these findings,
              projects and activities, as well as the number of jobs         see page 20.)
              funded by stimulus money. An effective internal con­
              trol structure that detects and prevents errors and            In Improvements Recommended for Commerce Pre-
              omissions in reporting is vital to data integrity.             Award Guidance and NIST and NOAA Processes for
                                                                             Awarding Grants (ARR-19841), we recommended that
              OIG reviewed key IT and operational controls of the            the Commerce Office of Acquisition Management
              primary grants, contracts, and/or financial systems            (OAM) revise its grants manual so that grant-making
              for Census, EDA, NIST, NOAA, and NTIA to deter­                operating units at Commerce have standard guidance
              mine whether their controls ensure that the                    and procedures to follow, for both Recovery Act
              Commerce reports posted on Recovery.gov are com­               awards and all other discretionary awards. We also
              plete, accurate, and reliable. Generally, the                  made recommendations specific to NIST and
              Commerce systems reviewed had adequate data                    NOAA. (For more information about these findings,
              input/edit controls. However, the lack of automated            see page 20.)
              data transmission from the grants systems to
              Commerce’s financial system could lead to errors.

                                                                                 “The report plays an important role in
                 “Without additional automation, it will                       ensuring that the Board and the IG com­
                   become more difficult for Commerce                           munity understand the potential weak­
                 agencies to effectively manage their own                       nesses that may exist in the oversight of
                  reporting as the volume of grants and                        the [Recovery Act] ... I greatly appreciate
                          contracts increases ...”                             the leadership your staff demonstrated in
                                                                                structuring the review and reporting on
                      IG testimony before a U.S. Senate                                       the results.”
                 Appropriations Subcommittee, March 4, 2010
                                                                                      Board Chairman Earl E. Devaney,
                                                                                    in a letter to the IG, March 22, 2010

              We reported our findings in More Automated
              Processing by Commerce Bureaus Would Improve
              Recovery Act Reporting (ARR-19779) and recommend­              At the request of the Recovery Accountability and
              ed additional automation to add efficiencies to the            Transparency Board, OIG led a government-wide
              reporting process and decrease the risks of reporting          review to determine whether programs that award
              errors and delays. Operating units are making appro­           Recovery Act contracts and grants have the proper
              priate system enhancements to address our recom­               level of workforce staffing, qualifications, and train­
              mendations. (For more information about these                  ing. The report, Review of Contracts and Grants
              findings, see page 19.)                                        Workforce Staffing and Qualifications in Agencies
                                                                             Overseeing Recovery Act Funds, reveals that the addi­
              OIG’s report on recipient reporting, Commerce Has              tional workload generated by the Recovery Act has
              Implemented Operations to Promote Accurate Recipient           created a strain on the contracts and grants workforce
              Reporting, but Improvements Are Needed (ARR–19847),            and that the government lacks a standard certifica­


                                                                        11
v2 OIG SAR March 2010.qxd   5/28/10      8:56 AM   Page 12




              Recovery Act Oversight 	                                                   March 2010—Semiannual Report to Congress



              tion and training program within the grants work­              From our work to date on BTOP’s program manage­
              force. The report recommends that agencies monitor             ment and pre-award process, we have the following
              their staffing for Recovery and non-Recovery Act               concerns about the program:
              programs and assess training and certification issues
              for contracting personnel. (For more information               ■    BTOP’s size and complexity have significantly chal­
              about these findings, see page 21.)                                 lenged NTIA. NTIA’s program staffing levels
                                                                                  appear to be insufficient to simultaneously perform
              Looking Ahead                                                       the necessary first- and second-round award activi­
                                                                                  ties. The office relies heavily on a few key individu­
              Broadband Technology Opportunities Program                          als and personnel from other agencies to carry out
                                                                                  the program’s operations.
              Of the $7.9 billion the Department received through
              the Recovery Act, NTIA received $5.3 billion, of               ■	   NTIA’s inconsistent documentation of important
              which $4.7 billion was for BTOP. BTOP’s objective                   information such as policies, procedures, staff roles,
              is to develop and expand broadband services in                      and key management decisions could lead to ineffi­
              underserved and unserved areas by deploying infra­                  ciency and miscommunication.
              structure, enhancing capacity at public computer
              centers, and promoting sustainable broadband adop­             ■    The first round of BTOP grant application process­
              tion projects. As of March 31, 2010, NTIA had obli­                 ing exposed several problems with the online grant
              gated approximately $1.18 billion, and some                         intake system, which affected efficiency and users’
              $25 million in BTOP funds had been expended.                        experiences.
              NTIA has embarked on its second, and final, round
              of grant awards. All awards must be obligated by               ■	   A shortage of volunteer peer reviewers meant that
              September 30, 2010.                                                 application review for the first round was delayed.
                                                                                  As NTIA manages the second-round process and
              BTOP remains a high-risk program. As the largest                    handles post-award activities for first-round grant
              Recovery Act program at Commerce with multiple                      recipients, it must be careful to obtain enough
              inherent risks, BTOP will continue as a high priority               reviewers for the workload.
              throughout the life of the Recovery Act. OIG has
              closely monitored its processes and implementation             ■    NTIA will need to closely monitor grantees during
              thus far. We will review NTIA’s BTOP-related post-                  post-award operations to ensure they comply with
              award activities, including the program’s processes for             the National Environmental Policy Act.
              monitoring grants and determining site visits, its
                                                                             We briefed NTIA senior management on our results
              grant recipient project reporting, and the technical
                                                                             on January 6, 2010. By letter dated January 21, we
              assistance it provides to recipients. In addition to
                                                                             responded to a request from Senator Barbara
              these monitoring activities, we will identify addition­
                                                                             Mikulski, chairwoman of the Senate Appropriations
              al oversight priorities as necessary.
                                                                             Subcommittee on Commerce, Justice, Science, and
                                                                             Related Agencies, to summarize our observations
                                                                             about NTIA’s BTOP challenges.
                 “BTOP, which aims to award approxi­
                                                                             We will issue a review of the program’s management
                mately $4.5 billion in grants in less than
                                                                             and pre-award process in early April 2010. As part of
                  18 months, represents a level of grant                     our continued proactive BTOP oversight, we will
                activity that no Commerce operating unit                     review the adequacy of NTIA’s systems, planning,
                           has ever undertaken.”                             and resources for performing post-award activities.
                   IG letter to Senators Barbara Mikulski and
                       Richard Shelby, January 22, 2010




                                                                        12
v2 OIG SAR March 2010.qxd    5/28/10   8:56 AM    Page 13




              March 2010—Semiannual Report to Congress                                                     Recovery Act Oversight



              NOAA and NIST Contracts and Grants                              Monitoring Obligations and Spending

              Construction grants and contracts involve inherent              OIG will continue to focus on the obligations and
              risks, and the two operating units’ staff expertise and         spending activity of Recovery Act-funded programs
              site visits will be integral to effective oversight. OIG        within the Department with particular attention to
              will conduct additional oversight work in the area of           recipient reporting. We will work with the
              high-risk construction contracts and grants. We will            Department’s operating units to monitor spending
              also conduct a performance review that includes an              and program activities on a quarterly basis.
              assessment of compliance requirements and project
              results.




                                                                         13
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 14
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 15




                                       WORK IN PROGRESS

              The following Office of Inspector General audits and           respondents. Determine which information systems
              evaluations were initiated or underway during this             include confidential data; how the data are stored,
              reporting period:                                              processed, distributed, and protected; and whether
                                                                             security controls are effectively protecting the data.

              Recovery Act Oversight                                         Incident Detection and Response
                                                                             Capabilities
              Review of NTIA’s Program Management                            Determine Census’s cyber attack detection and
              and Pre-Award Processes for BTOP                               response capabilities and monitor the bureau’s ability
              Review BTOP to (1) assess how effectively NTIA                 and efforts to find, analyze, contain, eradicate, recov­
              is implementing the program, (2) evaluate proposed             er from, and properly report incidents such as denials
              pre-award review measures to ensure effective                  of service, malicious code attacks, unauthorized
              and fair application and award processes, and                  access, and inappropriate use of data.
              (3) evaluate integrity and reliability of the online
              application system.                                            2010 Census Field Operations Oversight
                                                                             Monitor census enumerator operations and local
              Performance Measurement of Certain                             Census offices processes for conformity to specifica­
              NIST and NOAA Recovery Act Programs                            tions, accuracy, and management efficiency. This
              Review policies, procedures, plans, and metrics relat­         work will involve almost 100 members of our staff
              ed to monitoring and reporting the progress of cer­            observing field operations at over 70 of the 494 local
              tain Recovery Act programs. Assess relevant                    Census offices.
              information management systems that support
              Recovery Act performance measurement tracking                  Fourth Census Quarterly Report
              and reporting.                                                 Report on the progress of the 2010 Census with
                                                                             respect to cost, schedule, and risk, as mandated by
              Review of the Management of the                                the explanatory statement that accompanied the
              Herbert C. Hoover Building (HCHB)                              Supplemental Appropriations Act of 2008 (P.L. 110­
              Renovation Project                                             252).
              Gain an understanding of the HCHB renovation
              scope and management plan, including internal con-
              trols/oversight mechanism, project cost(s), mile­              Economic Development
              stones, current challenges, and project management             Administration
              coordination efforts with GSA. Review the project
              plans, awards, and milestones; interview relevant offi­        Trade Task Group
              cials; and evaluate best practices and lessons learned.        Audit cooperative agreements between EDA and the
                                                                             Seattle-based Trade Task Group to determine
                                                                             whether costs claimed under these agreements are
              Census Bureau                                                  reasonable, allowable, and allocable and whether ade­
                                                                             quate internal controls are in place for the selection of
              Safeguarding Confidential Decennial                            consultants.
              Respondent Data
              Evaluate the bureau’s ability to safeguard secure con­
              fidential electronic data supplied by decennial


                                                                        15
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM    Page 16




              Work in Progress                                                       March 2010—Semiannual Report to Congress



              National Institute of Standards                               Determine whether NOAA’s acquisition of the facili­
                                                                            ties adhered to federal, departmental, and NOAA
              and Technology
                                                                            requirements.
              California Manufacturing Extension
                                                                            NOAA’s Environmental Satellite
              Partnership (MEP) Cooperative
                                                                            Programs Survey
              Agreement
                                                                            Examine the effectiveness of the National
              Determine whether the recipient of an MEP cooper­
                                                                            Environmental Satellite, Data, and Information
              ative agreement in California has complied with all
                                                                            Service’s activities to acquire and manage the devel­
              applicable terms, conditions, and NIST operating
                                                                            opment of the nation’s polar and geostationary envi­
              guidelines.
                                                                            ronmental satellites. Monitor the Joint Polar Satellite
                                                                            System transition and the progress of the
              National Oceanic and                                          Geostationary Operational Environmental Satellite-
                                                                            R Series Program.
              Atmospheric Administration

              Pacific States Marine Fisheries                               National Telecommunications and
              Commission
              Audit two NOAA cooperative agreements and three
                                                                            Information Administration
              contract task orders awarded to the Commission. In
                                                                            Second Annual Audit of the Public
              addition to performance, compliance, and cost-
                                                                            Safety Interoperable Communications
              incurred audits of the agreements and task orders, the
                                                                            (PSIC) Grant Program
              comprehensive audit includes an audit of 12 cost-
                                                                            Conduct second annual audit of the PSIC grant pro­
              reimbursable contracts awarded under the two coop­
                                                                            gram. Assess NTIA’s administration of the program
              erative agreements and 7 years of Commission
                                                                            and report results to Congress, as required by section
              indirect cost rates and related proposals.
                                                                            2201 of Implementing Recommendations of the
              U.S. Historical Climatology Network’s                         9/11 Commission Act of 2007 (Title XXII, Pub. L.
              Data Quality and Modernization Efforts                        110-53).
              Review the U.S. Historical Climatology Network
                                                                            Audits of PSIC Grants
              (USHCN) to determine whether NOAA’s efforts to
                                                                            Continue audits of a sample of PSIC grants as
              modernize the system will correct data quality issues
                                                                            required by the Implementing Recommendation of
              with current USHCN sites.
                                                                            the 9/11 Commission Act of 2007. Determine the
              NOAA Enforcement Activities                                   progress recipient states have made to acquire and
              Continue our nationwide review of the policies and            deploy interoperable communications with PSIC
              practices of NOAA’s Office of Law Enforcement and             grant funds and whether their use of funds meets all
              General Counsel for Enforcement and Litigation.               federal requirements.
              Focus on (1) evaluating enforcement operations in a
              regulatory environment; (2) assessing processes used
                                                                            United States Patent and
              to establish priorities with respect to enforcement
              actions and penalties; and (3) reviewing overall              Trademark Office
              accounting and management practices applied to the
              enforcement function, as well as the use of funds             Patent Quality Assurance Process
              NOAA receives through penalties.                              Determine the effectiveness of USPTO’s patent qual­
                                                                            ity assurance process in ensuring that established
              Evaluation of Acquisition of Facilities for                   patent examination quality standards are met, and
              the Marine Operations Center–Pacific                          whether the process complies with applicable depart­
              Review the procurement of facilities that will house          mental, bureau, and federal laws, regulations, poli­
              Marine Operations Center–Pacific operations.                  cies, procedures, and guidelines.



                                                                       16
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 17




              March 2010—Semiannual Report to Congress                  Work in Progress



              Patent Budget Projections
              Determine the effectiveness of USPTO’s process to
              project revenue and expenses for its Patent opera­
              tions. Determine whether this process enables
              USPTO to meet its expenses and achieve its mission
              and strategic goals for Patents.




                                                                   17
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 18
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 19




                                        DEPARTMENT-WIDE

                                          MANAGEMENT


              T
                      he United States Department of Commerce creates the conditions for economic growth and opportunity by
                      promoting innovation, entrepreneurship, competitiveness, and stewardship. The Department has three stated
                      strategic goals:

                      Goal 1: Provide the information and tools to maximize U.S. competitiveness.

                      Goal 2: Foster science and technological leadership by protecting intellectual property, enhancing technical
                      standards, and advancing measurement science.

                      Goal 3: Observe, protect, and manage Earth’s resources to promote environmental stewardship.

              The Department has also established a Management Integration Goal that is equally important to all operating units:
              Achieve organizational and management excellence.



              More Automated Processing by                                   evaluation’s scope included the primary (source)
                                                                             grant, contract, and/or financial systems for Census,
              Commerce Bureaus Would
                                                                             EDA, NIST, NOAA, and NTIA.
              Improve Recovery Act Reporting
              (ARR-19779)                                                    Generally, the 11 Commerce systems we reviewed,
                                                                             which included both source and supporting systems,
              Updated Recovery Act guidance provided by OMB                  had adequate data input/edit controls. However, the
              on April 3, 2009, spelled out, among other require-            lack of automated data transmission from the three
              ments, each department’s responsibility to post finan­         operating unit grant systems to the Commerce
              cial and activity reports as well as funding                   Business System (CBS), the financial system of record
              notification reports on the public web portal                  from which all Recovery Act reporting originates,
              Recovery.gov. Although OMB provided specific direc­            could potentially lead to errors. Approximately $5.2
              tions and data requirements in its initial guidance,           billion (or 65 percent) of Commerce Recovery Act
              during our fieldwork the reporting templates were              funds will be provided through grants; thus, more
              updated to capture additional required information             robust controls such as system-to-system interfaces
              such as expenditures, transfers, or reimbursable agree-        should be employed to reduce the reliance on manu­
              ments between federal agencies.                                al controls. Further, an automated process would be
                                                                             more efficient as volumes increase.
              This evaluation assessed the adequacy of key IT and
              operational controls to determine whether the con-             Regarding reporting integrity on Recovery.gov, we
              trols ensure that the Commerce reports posted on               noted that while the overall amounts on weekly
              Recovery.gov are complete, accurate, and reliable. The         financial and activity reports were reasonably accu­


                                                                        19
v2 OIG SAR March 2010.qxd       5/28/10   8:56 AM    Page 20




              Department-Wide Management	                                                  March 2010—Semiannual Report to Congress



              rate, the report gathering, reconciliation, and dissem­           cycle at month end. As such, it was too early to deter­
              ination processes are largely manual. With the cur­               mine whether operating unit processes would ade­
              rent low volume of activity, these manual controls are            quately identify and remediate material omissions
              operating acceptably; however, as volumes increase                and significant data errors in the recipients’ reported
              the process may not be sustainable.                               data. However, we did identify improvements
                                                                                Commerce and its operating units should make to
              Based on our findings, we recommended that:                       data quality policies and procedures, which is espe­
                                                                                cially important as programs mature and review pro­
              ■    The chief financial officers of NOAA, NIST, and              cedures are fully implemented. Given that the
                   EDA work with grants management staff to devel­              reporting process is in its initial stages, operating
                   op system-to-system interfaces between the three             units will necessarily need to address certain issues as
                   operating units’ systems and CBS. These interfaces           processes evolve, as our findings detailed.
                   would process grant activity more efficiently and
                   ensure source systems reconcile to the financial sys­        We recommended that Commerce and its operating
                   tem of record. Manual reconciliations can then               units continue to fine-tune their review pro­
                   supplement or provide a secondary level of control.          cedures by:
              ■	   The Commerce Recovery Act Implementation                     ■   providing guidance on what constitutes a material
                   Office evaluate ways to further automate report                  omission and significant error in the recipient-
                   generation and ensure that consistent processes are              reported data and documenting this in their poli­
                   used across operating units. In addition,                        cies and procedures;
                   Commerce should consider implementing a central
                   data repository to generate all Recovery Act data. A         ■   ensuring that operating units implement an auto­
                   central repository could serve other purposes even               mated means of data review, especially for larger
                   after full implementation of the Recovery Act.                   programs with a high volume of recipient report­
                                                                                    ing; and
              Commerce Has Implemented
              Operations to Promote Accurate                                    ■   updating and revising policies and procedures as the
              Recipient Reporting, but                                              process matures and more recipient reporting chal­
                                                                                    lenges emerge—especially in the areas of sub-recip­
              Improvements Are Needed                                               ient reporting and job creation and retention.
              (ARR–19847)
                                                                                Improvements Recommended for
              Commerce and its operating units have proactively
              ensured that Recovery Act recipients recognize and
                                                                                Commerce Pre-Award Guidance
              meet reporting requirements and deadlines.                        and NIST and NOAA Processes
              Commerce Recovery Act implementation officials                    for Awarding Grants (ARR-19841)
              provided policy, guidance, and oversight to grant and
              contracts officials to facilitate department-wide stan­           The Recovery Act appropriated $180 million to
              dard review processes. Operating unit officials estab­            NIST for a competitive grant program to construct
              lished policies and procedures to support compliance              research science buildings. NIST issued four grant
              with requirements, contacted recipients by telephone              awards of approximately $56 million for unfunded
              and e-mail, provided recipients with training on                  meritorious proposals previously submitted under
              Recovery Act reporting, and offered recipients tools              the FY 2008 competition and will award approxi­
              such as checklists to help guide them through the                 mately $120 million under a new competition in
              reporting process.                                                FY 2010.

              As requested by the Recovery Accountability and                   From its Recovery Act appropriation, NOAA allocat­
              Transparency Board, we completed this audit in early              ed up to $167 million for the Habitat Conservation
              October 2009, prior to the first full, finalized review           and Restoration Program, a competitive financial


                                                                           20
v2 OIG SAR March 2010.qxd      5/28/10   8:56 AM    Page 21




              March 2010—Semiannual Report to Congress                                                  Department-Wide Management



              assistance program to assist marine and costal habitat            Review of Contracts and Grants
              restorations. NOAA awarded 50 cooperative agree­
                                                                                Workforce Staffing and
              ments in FY 2009 using Recovery Act funds.
                                                                                Qualifications in Agencies
              Our objective was to review the NIST and NOAA                     Overseeing Recovery Act Funds
              award solicitation, selection, and pre-award phases to
              determine whether the awards were made competi­                   At the request of, and in consultation with, the
              tively in accordance with Commerce and Recovery                   Recovery Accountability and Transparency Board, we
              Act requirements. Although we did recommend areas                 developed a survey of the staffing and qualifications
              for improvement, our review found that NIST and                   of pertinent federal agencies’ contracts and grants
              NOAA complied with Department and Recovery Act                    workforce. We received over 500 responses from
              competition requirements.                                         26 agencies—including the Department of
                                                                                Commerce—completed by one or more contracts
              We found that the Commerce Office of Acquisition                  and grants offices within those agencies. Although
              Management (OAM) has not revised its grants man­                  the scope of this survey addressed programs and oper­
              ual to clarify the operating units’ responsibility for            ations beyond the Department of Commerce, its
              conducting individual background screenings on                    findings reflect and are applicable to Departmental
              applicants and recipients of Commerce grants and                  operating units.
              cooperative agreements. As a result, NIST and
              NOAA did not have standard procedures to follow                   Survey results indicated that agencies government-
              for conducting individual background screenings for               wide have been staffing up to meet Recovery Act
              the Recovery Act funds.                                           demands. Agencies receiving Recovery Act funding
                                                                                reported that from April through June 2009, they
              Based on our findings, we recommended that:
                                                                                assigned more than 22,000 professional staff to their
              ■   NIST improve its documentation of the evaluation              Recovery Act contracts and grants work (out of a
                  board selection process to ensure that its financial          total of nearly 99,000 such personnel). Staffing levels
                  assistance award decisions are clearly documented.            in the acquisitions and grants workforce are expected
                                                                                to increase to just under 25,000 and remain at that
              ■   NOAA’s grants office review prior audit reports as            level through June 2010.
                  part of its evaluation of an applicant’s past perform­
                  ance to determine whether special award conditions            Survey responses indicate that the additional workload
                  are warranted, and include special award conditions           has strained a significant portion of the contracts and
                  to mitigate risks of making an award to an organi­            grants workforce charged with making Recovery Act
                  zation with known performance problems.                       awards. Although agencies are prioritizing Recovery
                                                                                Act work and, in many instances, hiring additional
              ■   OAM revise the grants manual so that the grant-               staff or realigning work to assist, the added workload
                  making operating units at Commerce have stan­                 has exacted a price. Contract and grant awards are
                  dard guidance and procedures to follow to conduct             being delayed, as is other work. Employees are working
                  individual background screenings. Once the policy             overtime, and oversight and monitoring of awards—
                  is developed, OAM should work with Commerce                   especially non-Recovery Act contracts and grants—are
                  operating units receiving funds, including NIST               expected to decline as many agencies attempt to imple­
                  and NOAA, to determine whether Recovery Act                   ment Recovery Act requirements while carrying out
                  awards need individual background screenings                  their ongoing programs and operations.
                  based on the new policy, and how the Department
                  can best obtain these screenings. Operating units             While agencies are generally assigning a qualified
                  should follow the policy for both Recovery Act                acquisitions and grants workforce to the Recovery
                  awards and all other discretionary awards.                    Act, some concern exists that training may be delayed
                                                                                over the coming year as agencies continue to address
                                                                                their increased workloads. The compliance of the
                                                                                contracting workforce with Office of Federal


                                                                           21
v2 OIG SAR March 2010.qxd       5/28/10   8:56 AM    Page 22




              Department-Wide Management	                                                  March 2010—Semiannual Report to Congress



              Procurement Policy certification and training                      Anti-Deficiency Act. Another concern related to
              requirements varies considerably, though nearly all                Anti-Deficiency Act compliance at NTIA was
              Recovery Act contracting officers are certified. And,              referred to the Department’s Office of General
              while no equivalent government-wide standard exists                Counsel.
              for certification or training within the grants commu­
              nity, about one-third of responding subagencies have               KPMG found that while the Department has taken
              established agency-specific requirements for their                 positive steps to correct previous findings, there are
              grants workforce.                                                  still vulnerabilities related to various controls over the
                                                                                 Department’s financial management systems. These
              Based on our survey results, we recommended that                   weaknesses combine to form a significant deficiency
              agencies continue to closely monitor their staffing of             in Commerce’s IT controls.
              both Recovery Act and non-Recovery Act work, and
              make adjustments as necessary to ensure that all con­              KPMG also audited the Department’s special-pur­
              tracts and grants are properly awarded and monitored.              pose financial statements and determined its compli­
                                                                                 ance with financial reporting requirements in the
              We also recommended that agencies assess training                  Treasury Financial Manual. The Treasury
              and certification issues for their contracting person­             Department uses the audited statements to prepare
              nel. In particular, agencies should:                               its Financial Report of the U.S. Government. In its
                                                                                 unqualified opinion on the special-purpose state­
              ■	   ensure contracting personnel meet continuous                  ments, KPMG reported no material weaknesses in
                   learning requirements to maintain their                       internal controls and no instances of noncompliance.
                   certifications,
                                                                                 We requested that the Department provide us an
              ■    identify contracting officer’s (technical) representa­        audit action plan to address the report’s findings and
                   tives (COTRs/CORs) working on Recovery Act                    delineate the actions the Department plans to take to
                   contracts who do not meet certification and/or                correct the IT deficiency. We also asked the
                   continuous learning requirements, and take correc­            Department to provide the rationale or legal basis
                   tive action, and                                              behind its decision should it choose not to imple­
                                                                                 ment KPMG’s recommendations.
              ■    determine whether program managers working on
                   major acquisitions under the Recovery Act are cer­            Nonfederal Audit Activities
                   tified, and take appropriate steps to certify those
                   who are not.                                                  In addition to undergoing OIG-performed audits,
                                                                                 certain Commerce financial assistance recipients are
              Absent government-wide standards for grants man­                   periodically examined by state and local govern­
              agement personnel, agencies have established their                 ment auditors and by independent public account­
              own requirements, which we view as a best practice.                ants. OMB Circular A-133, Audits of States, Local
                                                                                 Governments, and Non-Profit Organizations, sets
              FY 2009 Financial Statement                                        forth audit requirements for most of these audits.
              Audits (FSD-19652)                                                 For-profit organizations that receive Advanced
                                                                                 Technology Program (ATP) funds from NIST are
              Independent auditor KPMG found that the                            audited in accordance with Government Auditing
              Department’s consolidated financial statements were                Standards and NIST Program-Specific Audit
              fairly presented in all material respects and in con­              Guidelines for ATP Cooperative Agreements, issued by
              formity with U.S. generally accepted accounting                    the Department.
              principles. KPMG found one instance of material
              noncompliance with laws, regulations, or contracts:                We examined 147 audit reports during this semian­
              one of NOAA’s real property agreements contained                   nual period to determine whether they contained
              an indemnification clause, which is a violation of the             audit findings related to Commerce programs. For 74



                                                                            22
v2 OIG SAR March 2010.qxd        5/28/10     8:56 AM    Page 23




              March 2010—Semiannual Report to Congress                                               Department-Wide Management



              of these reports, the Department acts as oversight               Congressional Testimony
              agency and monitors the audited entity’s compliance
              with OMB Circular A-133 or NIST’s program-spe­                   During the reporting period, the Inspector General
              cific reporting requirements. The other 73 reports are           testified on the top management challenges facing
              from entities for which other federal agencies have              the Department before the Senate Committee on
              oversight responsibility. We identified 11 reports with          Appropriations (March 4, 2010). His statement is
              findings related to the Department of Commerce.                  available at www.oig.doc.gov.

                  Report Category                        OMB A-133 Audits            ATP Program-SpecificAudits          Total

                  Pending (October 1, 2009)                          70                           22                         92

                  Received                                           86                             9                        95

                  Examined                                         120                            27                      147

                  Pending (March 31, 2010)                           36                             4                        40

              The following table shows a breakdown by operating
              unit of approximately $400 million in Commerce
              funds audited.

                  Agency                                                                                             Funds

                  Economic Development Administration                                                             $53,265,273

                  International Trade Administration                                                                  267,665

                  Minority Business Development Agency                                                                655,084

                  National Institute of Standards and Technology 1                                                 57,684,622

                  National Oceanic and Atmospheric Administration                                                 129,852,216

                  National Telecommunications and Information Administration                                        3,975,076

                  Multi-Agency                                                                                    150,174,496

                  Not Identified by Agency                                                                          3,947,274

                   Total                                                                                        $399,821,706
              1
                  Includes $55,432,901 in ATP program-specific audits.


              We identified a total of $4,196,902 in federal questioned
              costs and $3,816,000 in funds to be put to better use. In
              most reports, the subject programs were not considered
              major programs; thus, the audits involved limited trans­
              action and compliance testing against laws, regulations,
              and grant terms and conditions. The 11 reports with
              Commerce findings are listed in Appendix B-1.


                                                                          23
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 24
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 25




                          ECONOMICS AND STATISTICS

                              ADMINISTRATION


              T
                      he Economics and Statistics Administration analyzes economic activity, formulates policy options,
                      and produces a major share of U.S. government economic and demographic statistics. The chief
                      economist monitors and analyzes economic developments and directs studies that have a bearing on
              the formulation of economic policy. ESA has two principal organizational units:

              Census Bureau is the country’s preeminent statistical collection and dissemination agency. The bureau publishes
              a wide variety of statistical data about the nation’s people and economy, conducting approximately 200 annual
              surveys, in addition to the decennial census of the U.S. population and the quinquennial census of industry.

              Bureau of Economic Analysis prepares, develops, and interprets national income and product accounts
              (summarized by the gross domestic product), as well as aggregate measures of international, regional, and state
              economic activity.



              2010 Census: Quarterly Report to
                                                                               The Supplemental Appropriations Act
              Congress, December 2009                                              of 2008 and the 2010 Census
              (OIG-19791-2)                                                               (P.L. 110-252)
              Census is moving forward with important decennial               The Supplemental Appropriations Act of 2008
              operations and activities, including completing two             gave the Census Bureau an additional $210 mil­
              major operations: address canvassing and group quar­            lion to help cover spiraling 2010 decennial costs
              ters validation. Our December 2009 quarterly report             stemming from the bureau’s problematic efforts
              noted several risks to the 2010 decennial, including            to automate major field operations, major flaws
              scheduling delays, cost overruns, and complications             in its cost-estimating methods, and other issues.
              associated with the development of a paper-based oper­          The act’s explanatory statement required the
              ations control system (PBOCS).                                  bureau to submit to Congress a detailed plan and
                                                                              timeline of decennial milestones and expendi­
              Census must develop PBOCS to manage field oper­                 tures, as well as a quantitative assessment of asso­
              ations, since increasing costs and automation prob­             ciated program risks, within 30 days. OIG must
              lems prompted the bureau to abandon handheld                    provide quarterly reports on the bureau’s progress
              computers in early operations in favor of paper. The            against this plan.
              compressed schedule renders PBOCS a major risk to
              the decennial census.
                                                                            ties, almost 9 percent of its total 2010 Census budget
              For FY 2010, Census requested about $674 million              request. The contingency fund, formulated with the
              in contingency funds for key operations and activi-           advice of Department and Census officials, is based


                                                                       25
v2 OIG SAR March 2010.qxd      5/28/10    8:56 AM   Page 26




              Economics and Statistics Administration 	                                      March 2010—Semiannual Report to Congress



              on the level of risk or uncertainty associated with key           tant that the Census Bureau operate efficiently and
              decennial activities. Census was able to cover an                 within budget.
              $88-million (nearly 25 percent) address canvassing
              overrun by utilizing several sources, including                   During this reporting period, we observed the
              $41 million from FY 2009 contingency funds and                    following:
              $47 million in savings from other operations
              and activities.
                                                                                ■	   PBOCS development and testing have continued
                                                                                     to suffer setbacks that will reduce functionality and
              The bureau’s process for managing 2010 Census pro­                     require workarounds to complete NRFU. PBOCS
              gram risks represents a significant improvement over                   testing is revealing more and more critical defects as
              the previous census in 2000. However, because the                      it progresses. Schedule delays have hindered the
              majority of its time has been spent on contingency                     development of training manuals and technical
              planning, the bureau’s Risk Review Board (RRB) did                     support guides.
              not review risk ratings in detail at weekly meetings, as
              required by Census’s risk management plan. The
                                                                                ■    The bureau conducted two operational load tests of
              RRB is working on a plan to help Census manage­                        computer networks supporting decennial opera­
              ment complete its contingency plans and actively                       tions. The tests showed that the networks and
              monitor its risk management activities.                                devices were able to successfully handle peak loads,
                                                                                     but revealed PBOCS and other IT performance
              This report did not provide specific recommenda­                       problems.
              tions. However, we will continue to monitor specific
                                                                                ■	   While Census stayed within budget during our
              2010 Census operations and activities, such as:
                                                                                     review period, spending among local Census offices
              ■	    Given the importance of PBOCS in managing                        (LCOs) remains a concern. The address canvassing
                   Census’s fieldwork operations workload, and the                   operation was 25 percent over budget, and our
                   short timeframe available for system development,                 analysis of travel costs for the operation found wide
                   we will continue to monitor and report on                         disparities in wages and mileage reimbursement in
                   PBOCS development and testing in subsequent                       some of the LCOs.
                   quarterly reports.
                                                                                ■    Census has issued a revised cost estimate of $2.33 bil­
              ■	    Because of the address canvassing cost overrun,                  lion for NRFU. Any NRFU cost reductions are like­
                   Census is currently revising nonresponse follow-up                ly to be partially offset by an estimated increase of
                   (NRFU) cost assumptions, especially the projected                 $137 million for the vacant/delete check operation.
                   mail response rate. We will evaluate NRFU planning
                                                                                ■    Census’s RRB has taken a proactive role in oversee­
                   efforts, operational effectiveness, and data quality.
                                                                                     ing risk management activities. The RRB has initi­
              ■    Census used Recovery Act funds to hire additional                 ated a monthly review of the 25 identified risks on
                   partnership positions in hard-to-count areas. While               the bureau’s risk register. The RRB is reviewing
                   we recognize Census’s relatively quick recruitment                contingency plans for 13 of the risks. At the time of
                   and hiring, we will monitor the adequacy of man­                  our report, the RRB had finalized four plans, which
                   agement and supervisory controls over the partner­                appear to be adequate to cover the actions Census
                   ship workforce.                                                   would need to take should the risks materialize.

                                                                                This report did not provide recommendations.
              2010 Census: Quarterly Report to
                                                                                Rather, we forwarded the Census Bureau a separate
              Congress, February 2010                                           document recommending that the following actions
              (OIG-19791-3)                                                     be taken:

              About 9,400 key operations and activities make up                 ■    Senior executives with the authority to set priori-
              the Census 2010 program. With such a complex,                          ties—such as reallocating resources to where they
              time-sensitive undertaking, it remains vitally impor­                  are most needed, resolving conflicting priorities,


                                                                           26
v2 OIG SAR March 2010.qxd      5/28/10   8:56 AM   Page 27




              March 2010—Semiannual Report to Congress	                                        Economics and Statistics Administration



                   and making major changes to the decennial sched­
                   ule or plan—should closely monitor PBOCS                            Federal Information Security
                   activities and act to expeditiously reduce opera­                    Management Act of 2002
                   tional risk.
                                                                                         (Title III, P.L. 107-347)
              ■	   Streamline development and testing by further                The Federal Information Security Management
                   reducing PBOCS capabilities to the essentials need­          Act of 2002 (FISMA) requires federal agencies
                   ed for the most important enumeration operations.            to identify and provide security protection of
                                                                                information collected or maintained by it or on
              ■	   Focus on developing standardized procedural                  its behalf. Inspectors general are required to
                   workarounds for PBOCS capabilities that cannot               annually evaluate agencies’ information security
                   be implemented to support operations.                        programs and practices. These evaluations must
                                                                                include testing of a representative subset of sys­
              ■    Enhance technical support staff and procedures to
                                                                                tems and an assessment, based on that testing,
                   expeditiously resolve problems in the field.
                                                                                of the entity’s compliance with FISMA and
                                                                                other applicable requirements.
              FY 2009 FISMA Assessment of
              Field Data Collection Automation
              System (OAE-19728)                                              accounting principles. KPMG found no instances of
                                                                              material noncompliance with laws, regulations, or
              On April 17, 2009, the Field Data Collection                    contracts. The audit results indicate that Census’s
              Automation (FDCA) system was granted an interim                 internal control structure facilitates the preparation
              authorization to operate, allowing the system to oper­          of reliable financial and performance information.
              ate under specific terms and conditions while vulner­
              abilities were assessed and corrected. On June 17,              KPMG’s IT review found that while Census has
              2009, the authorizing official granted FDCA full                taken positive steps to correct previous IT findings,
              authorization to operate, even though at the time               there are still weaknesses related to IT controls sup­
              Census had made only minimal progress in correct­               porting the bureau’s financial management systems.
              ing system weaknesses. We found that the authoriz­              Although these weaknesses are not considered a sig­
              ing official should have extended the interim                   nificant deficiency in Census’s IT controls, we
              authorization to operate rather than issuing a full             requested that Census provide us an audit action plan
              authorization.                                                  to address the report’s findings and delineate the
                                                                              actions it plans to take to correct the IT vulnerabili­
              Our review also found that FDCA’s system security               ties. We also asked that Census provide the rationale
              plans and security control assessments were generally           or legal basis behind its decision should it choose not
              adequate but need improvement. The bureau has not               to implement KPMG’s recommendations.
              established, implemented, and assessed secure config­
              uration settings for all IT products that are part of           Congressional Testimony
              FDCA. We made recommendations intended to pro­
              vide increased assurance that the system and its infor­         During the reporting period, the Inspector General
              mation will be adequately protected for the duration            and the Associate Deputy Inspector General testified
              of the census.                                                  on various aspects of the 2010 Census at hearings
                                                                              before the House Committee on Oversight and
              FY 2009 Financial Statement                                     Government Reform (March 25, 2010, and October
                                                                              21, 2009) and the Senate Committee on Homeland
              Audits (FSD-19651)                                              Security and Governmental Affairs (February 23,
                                                                              2010, and October 7, 2009). Their statements are
              Independent auditor KPMG found that Census’s bal­
                                                                              available at www.oig.doc.gov.
              ance sheet was fairly presented in all material respects
              and in conformity with U.S. generally accepted


                                                                         27
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 28
v2 OIG SAR March 2010.qxd     5/28/10     8:56 AM     Page 29




                          NATIONAL INSTITUTE OF

                       STANDARDS AND TECHNOLOGY


              T
                     he National Institute of Standards and Technology promotes U.S. innovation and industrial com­
                     petitiveness by advancing measurement science, standards, and technology in ways that enhance eco­
                     nomic security and improve quality of life. NIST manages four programs: the Technology Innovation
              Program, the Manufacturing Extension Partnership program, the Baldrige National Quality Program, and
              NIST Research Laboratories.



              State of Ohio Department of
              Development MEP Award                                                          Manufacturing Extension
                                                                                            Partnership (MEP) Program
              70NANB5H1188 (DEN-18604)
                                                                                    Congress established the MEP program in 1988
              In September 2005, NIST awarded an MEP coopera­                       to offer technical and business management
              tive agreement to the State of Ohio Department of                     assistance to manufacturers, with the goal of
              Development (ODOD) to continue operating an                           improving their profitability, productivity, and
              existing MEP center. The award funded the period July                 global competitiveness.
              1, 2005, through June 30, 2006, and was later extend-
              ed through June 30, 2007. Total estimated project costs               Operated by NIST, the program provides par­
              for the 24-month award period were $27,272,502.                       tial federal funding to 59 nonprofit organiza­
                                                                                    tions (at least one in every state) to operate
              In May 2007, we initiated an audit of the agreement                   MEP centers that offer an array of services to
              to determine whether the recipient complied with                      business and industry clients. The funding is
              award terms and conditions and NIST operating                         made available through cooperative agreements
              guidelines for MEP centers. The audit covered the                     that require nonfederal matching funds from
              period July 1, 2005, through March 31, 2007, dur­                     state or regional partners to support center
              ing which time the recipient claimed project costs of                 operations.
              $20,269,989 and received federal reimbursements
              totaling $6,517,538.
              Our audit questioned $6,781,041 in costs claimed by                 tion pertained to contractual claims, salaries and
              ODOD and cost claims of two grant subrecipients,                    other personnel costs, invalid travel-related claims,
              Manufacturing Advocacy and Growth Network                           and various indirect costs. We also found that the
              (MAGNET) and TechSolve, Inc. The costs in ques­                     subrecipients did not report program income1 gener­

              1
                Program income is revenue generated from activities conducted under a financial assistance award. The most common form of pro­
              gram income under an MEP award is fees collected from manufacturers for training or other services provided by the MEP center. MEP
              rules require program income to be used to fund the nonfederal share of allowable costs. Any excess program income must be used to
              reduce the federal cost share, unless NIST approves carrying the excess forward to pay nonfederal expenses in a subsequent year.


                                                                             29
v2 OIG SAR March 2010.qxd     5/28/10   8:56 AM   Page 30




              National Institute of Standards and Technology 	                       March 2010—Semiannual Report to Congress



              ated under their subawards to ODOD; consequently,             reviews these reports and maintains the grant files.
              ODOD did not report this information to NIST.                 The reports are among the tools that should be used
              The two subrecipients also generated program                  by NIST project managers and grant officials to
              income in excess of that permissible under the coop­          ensure federal funds are spent for their intended pur­
              erative agreement.                                            pose. OIG reviews the audit reports for completeness
                                                                            and reportable findings and maintains a database of
              We analyzed MAGNET’s and TechSolve’s accounting               the audit reports.
              records for the period July 1, 2005, through June 30,
              2006, and found the two subrecipients had generat­            Our review covered audit reports that were due from
              ed a combined program income of $1,424,266 in                 the program’s inception in 1990 through awards that
              excess of what was required to pay the nonfederal             expired in May 2007. We found that NIST had not
              share of project costs.                                       met its responsibilities to monitor the ATP awards by
                                                                            collecting recipient audit reports and ensuring that
              As a result of the questioned costs and excess program        recipients have the required audits conducted.
              income, ODOD received $2,057,121 more than it                 During this time period, NIST identified 213 awards
              should have in federal funds.                                 with project costs totaling $482 million that did not
                                                                            have audit reports as part of their records. NIST did
              We recommended the chief of NIST’s Grants and                 not know whether these grant recipients had actually
              Agreement Management Division:                                conducted the audits. By not diligently monitoring
                                                                            audit report submissions, NIST did not ensure that
              ■    disallow $6,781,041 in questioned costs;
                                                                            these project costs were properly audited, thereby
              ■	   deduct $1,424,266 in excess program income from          increasing the risk of misuse of federal funds.
                   total accepted project costs from ODOD’s subre­
                                                                            We recommended that the director of NIST require
                   cipients; and
                                                                            that agency management collect the missing audit
              ■	   recover $2,057,121 of excess federal funds from          reports and provide OIG with copies, suspend fund­
                   ODOD.                                                    ing to grantees that do not provide missing reports,
                                                                            and ensure that NIST meets its monitoring responsi­
              Missing Audit Reports from NIST                               bilities. NIST needs to improve its management
                                                                            oversight procedures, not only to correct ATP prob­
              ATP Grant Recipients (ATL-19891)
                                                                            lems but also to reduce the future risk of misuse of
              Established in 1990, the Advanced Technology                  federal funds in ATP’s successor program, the
              Program (ATP) works through partnerships with pri­            Technology Innovation Program.
              vate-sector grant recipients to develop innovative
                                                                            NIST initiated an effort to deal with the missing
              technologies that promise significant commercial
                                                                            reports in 2008 but suspended that effort. We
              payoffs and widespread benefits for the nation. ATP
                                                                            addressed this issue because of its significance and to
              was set up as a cost reimbursement program that
                                                                            emphasize that NIST’s senior management needs to
              granted awards up to 5 years. Some awards require
                                                                            ensure that the issue is appropriately resolved.
              that the grant recipients provide matching funds
              while others are fully funded by ATP. The program
                                                                            Guilty Plea from NIST Grant
              received its final funding in 2007 and is scheduled to
              close out in 2012.                                            Recipient Under Investigation for
                                                                            Grant Fraud
              Under Department and NIST regulations, grant
              recipients must submit independent audits of project          In 2005, OIG received a complaint alleging that a
              costs to NIST and OIG. The audits must be con­                NIST ATP grantee, Whoola Incorporated, was ille­
              ducted at certain intervals during the performance of         gally diverting funds received from a $2 million, 3­
              the project and at its completion. NIST’s Grants and          year ATP grant to a sister company. In October 2006,
              Agreement Management Division collects and                    the U.S. Attorney’s Office for the Northern District



                                                                       30
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 31




              March 2010—Semiannual Report to Congress                     National Institute of Standards and Technology



              of Texas accepted the case for prosecution. During
              the investigation, the subject company surrendered to
              OIG agents 11 computer systems and 5 computer
              servers, estimated to be worth approximately
              $100,000. In July 2009, the company voluntarily
              repaid $76,000 in grant funds. In January 2010, in
              the U.S. District Court for the Northern District of
              Texas, the principal investigator for the project was
              charged and pled guilty to one count of violating 18
              USC § 666. In the signed plea agreement, the scien­
              tist admitted to misappropriating $70,000 in grant
              funds. He could face up to 10 years incarceration and
              fines up to $250,000. Sentencing is scheduled to
              occur in May 2010.




                                                                      31
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 32
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM    Page 33




                      NATIONAL OCEANIC AND

                   ATMOSPHERIC ADMINISTRATION



              T
                      he National Oceanic and Atmospheric Administration mission is to understand and predict changes
                      in Earth’s environment and conserve and manage coastal and marine resources to meet our nation’s eco­
                      nomic, social, and environmental needs. NOAA does this through six line offices:
              National Weather Service reports the weather of the United States and provides weather forecasts and warn­
              ings to the general public.
              National Ocean Service provides products, services, and information to promote safe navigation, support
              coastal communities, sustain marine ecosystems, and mitigate coastal hazards.
              National Marine Fisheries Service conducts a program of management, research, and services related to the
              protection and rational use of living marine resources.
              National Environmental Satellite, Data, and Information Service observes the environment by operating a
              national satellite system.
              Office of Oceanic and Atmospheric Research conducts research related to the oceans and Great Lakes, the
              lower and upper atmosphere, space environment, and the Earth.
              Office of Program Planning and Integration develops and coordinates NOAA’s strategic plan, supports
              organization-wide planning activities, guides managers and employees on program and performance manage­
              ment, and integrates policy analyses with decision-making.



              Review of NOAA Fisheries                                      NOAA’s enforcement operations have not garnered
                                                                            a great deal of attention from senior management,
              Enforcement Programs and
                                                                            they have great potential to affect the fishing
              Operations (OIG-19887)                                        industry, the livelihood of individual fishermen,
                                                                            and the public’s confidence in NOAA and the
              NOAA is entrusted with broad statutory enforce­
                                                                            Department.
              ment powers to promote compliance and deter vio­
              lations within the nation’s fisheries, primarily those        We undertook our review at the request of the Under
              involving the commercial fishing industry. This               Secretary of Commerce for Oceans and Atmosphere,
              calls for the highest degree of oversight by NOAA             who also serves as the Administrator of NOAA. She
              leadership to ensure fairness and consistency in              had been contacted by five members of the
              enforcement activities and sanctions, promote pro­            Massachusetts congressional delegation and state elect­
              gram integrity and accountability, and avoid even             ed officials, as well as by both U.S. Senators and mul­
              the appearance of abuse of authority. Although                tiple Representatives from North Carolina, recounting


                                                                       33
v2 OIG SAR March 2010.qxd      5/28/10    8:56 AM   Page 34




              National Oceanic and Atmospheric Administration	                              March 2010—Semiannual Report to Congress



              complaints of excessive penalties and retaliatory                 ■    NOAA needs to reassess its OLE workforce compo­
              actions by NOAA fisheries enforcement officials.                       sition (presently 90 percent criminal investigators)
                                                                                     to determine if this criminal enforcement-oriented
              The latest of several OIG reviews conducted over the                   structure is the most effective means to accomplish
              past 12 years on various aspects of NOAA’s National                    its primarily regulatory mission (i.e., based on
              Marine Fisheries Service (NMFS) fisheries enforce­                     OLE’s data, its caseload from January 1, 2007,
              ment issues, we evaluated the policies and practices of                through June 30, 2009, was about 98 percent
              NMFS’ Office of Law Enforcement (OLE) and                              non-criminal.)
              NOAA’s Office of General Counsel for Enforcement
              and Litigation (GCEL). Our review focused on eval­                We recommended that NOAA take the following
              uating (1) how OLE and GCEL conduct enforce­                      actions:
              ment operations within a regulatory environment;
              (2) the process used by OLE and GCEL to establish                 ■    Ensure that NOAA leadership regularly addresses
              priorities with respect to enforcement actions and                     and provides input to enforcement priorities and
              penalty assessments, and whether such actions and                      strategies with regional management, including for­
              penalties are within established legal parameters; and                 mal reporting protocols. Given the complexities of
              (3) the resources applied by NOAA to the enforce­                      NOAA’s mission and organization, the industry,
              ment function, including the management and use of                     and the current enforcement climate, its setting of
              funds obtained through imposed penalties.                              enforcement priorities should involve integration
                                                                                     and coordination with the headquarters fisheries
              We found systemic, nationwide issues adversely                         management and science center elements, includ­
              affecting NOAA’s ability to effectively carry out its                  ing the Assistant Administrator for NMFS—to
              mission of regulating the fishing industry. These                      whom OLE reports. Further, NOAA should con­
              issues have contributed significantly to a highly                      sider reestablishing the position of ombudsman to
              charged regulatory climate and dysfunctional rela­                     serve as an interface with the regulated industry.
              tionship between NOAA and the fishing industry—
              particularly in the Northeast Region. If not addressed
                                                                                ■	   Determine whether NOAA should continue to
              by NOAA’s senior leadership, these issues have the                     approach fisheries enforcement from a criminal-
              potential to further strain the tenuous relationship                   investigative standpoint, and, if another approach is
              that exists in the Northeast Region, and to become                     determined to be more appropriate, align OLE’s
              problematic in NOAA’s other regions.                                   workforce composition accordingly. In particular,
                                                                                     NOAA should determine whether OLE has an
              Our findings reflected that:                                           appropriate balance and alignment of uniformed
                                                                                     enforcement officers/inspectors and criminal inves­
              ■	   NOAA senior leadership and headquarters ele­                      tigators, based on mission need.
                   ments need to exercise substantially greater man­
                   agement and oversight of regional enforcement                ■    To promote greater transparency, consistency, and
                   operations, to include setting priorities, imple­                 oversight in NOAA’s enforcement processes and
                   menting effective management information sys­                     operations, (a) ensure that GCEL develops, imple­
                   tems, and utilizing data to inform management                     ments, and follows an internal operating proce­
                   decisions and enforcement activities.                             dures manual that includes comprehensive
                                                                                     processes, methods, and justification for determin­
              ■	   NOAA needs to strengthen policy guidance, pro­                    ing civil penalty assessments and fine settlement
                   cedures, and internal controls in its enforcement                 amounts; (b) institute a mechanism for higher-level
                   operations to make the civil penalty assessment                   review of civil penalty assessment determinations
                   process more transparent and appear less arbitrary                by GCEL attorneys in advance; and (c) ensure that
                   and unfair. NOAA also needs to revise applicable                  OLE’s National Enforcement Operations Manual is
                   procedural regulations and penalty schedules to                   current, including providing sufficient policy guid­
                   provide greater consistency, clarity, and reduce con­             ance on regulatory and criminal authorities and
                   fusion with affected industry parties.                            procedures.


                                                                           34
v2 OIG SAR March 2010.qxd       5/28/10   8:56 AM    Page 35




              March 2010—Semiannual Report to Congress                                 National Oceanic and Atmospheric Administration



              ■	   Ensure follow-through on the GCEL initiatives out­            its Environmental Satellite Processing Center
                   lined in its December 1, 2009, memorandum,                    (ESPC). A lack of proper security planning under­
                   intended to foster greater industry understanding of          mined the effectiveness of the system’s security certi­
                   and compliance with complex fishing regulations.              fication, hindering the authorizing official in making
                                                                                 a credible, risk-based accreditation decision. The sys­
              ■    Ensure that GCEL and OLE develop, implement,                  tem’s plan of action and milestones for remediating
                   and effectively utilize reliable, integrated case man­        vulnerabilities is ineffective.
                   agement information systems.
                                                                                 We recommended that NOAA complete security
              Based on our results, the following three areas require            planning activities, conduct appropriate security con­
              and will receive additional review by our office:                  trol assessments, address system deficiencies, and
                                                                                 revise the system’s accreditation status to an interim
              ■	   NOAA’s Retention of Civil Penalties and Its Asset             authorization to operate until it has completed these
                   Forfeiture Fund. Fishermen and other industry                 actions.
                   sources expressed concern to us that NOAA’s fines
                   are excessive, constituting a form of bounty,                 Investigation of NOAA Ship
                   because it retains the proceeds from enforcement
                   cases. We determined that NOAA has an asset for­              Repair Yields Cost Savings,
                   feiture fund comprising such proceeds, with an                Management Improvements
                   agency-reported balance of $8.4 million as of
                   December 31, 2009. The asset forfeiture fund                  A June 2009 allegation to OIG of software licensing
                   account has weak internal controls, and we could              violations by a NOAA contractor for shipboard com­
                   not readily determine how NOAA has utilized                   puter systems led to an investigation that disclosed an
                   these funds. We have commissioned a forensic                  organizational conflict of interest. As a result,
                   review of the fund.                                           NOAA’s Acquisitions Division excluded the contrac­
                                                                                 tor’s bids on a major acquisition for NOAA ships. In
              ■	   NOAA’s Progress in Addressing OIG’s Results. We will          March 2010, NOAA reported savings of $537,360,
                   review and report on NOAA’s progress in carrying              which represented the difference between the exclud­
                   out its actions in response to our findings and rec­          ed contractor’s bid and the bid the winner submitted
                   ommendations.                                                 after NOAA re-solicited the contract. To rectify lack
                                                                                 of competition findings, NOAA Marine Operations
              ■	   Individual Complaints. During our review we re­               instituted a training program with its contracting
                   ceived specific complaints from dozens of fisher­             officers and contracting officers’ technical representa­
                   men, including alleged abuses of authority by                 tives and tightened the requirements on justifications
                   NOAA enforcement personnel, disparate treat­                  for non-competitive awards.
                   ment, and excessive fines. We are examining these
                   complaints and the corresponding enforcement                  Congressional Testimony
                   case files to determine whether any additional
                   action is necessary or recommended, either by our             The Inspector General testified on NOAA fisheries
                   office or by NOAA.                                            enforcement before the Senate Committee on
                                                                                 Commerce, Science, and Transportation (March 3,
              FY 2009 FISMA Assessment of the                                    2010), House Committee on Natural Resources
              Environmental Satellite Processing                                 (March 3), and House Committee on Oversight and
                                                                                 Government Reform (field hearing in Gloucester,
              Center (OAE-19730)                                                 Massachusetts, March 2). His statements are available
              During our review of one NOAA system, we found                     at www.oig.doc.gov.
              that NOAA’s National Environmental Satellite, Data,
              and Information Service has not followed the
              required process for certification and accreditation of



                                                                            35
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 36




                            NATIONAL

                     TELECOMMUNICATIONS AND

                   INFORMATION ADMINISTRATION


              T
                      he National Telecommunications and Information Administration serves as the executive branch’s
                      principal advisor to the President on domestic and international telecommunications and information
                      policy issues. NTIA manages the federal use of the electromagnetic spectrum; provides grants for
              national information and public broadcasting infrastructure projects; and performs telecommunications
              research and engineering. It works to enhance citizens’ access to cable television, telephone, and other telecom­
              munications services; and educates state and local governments and other entities on ways to use information
              technology and telecommunications more effectively.




              Arkansas PSIC Grant Award No.
                                                                                  Digital Television Transition
              2007-GS-H7-0012 (DEN-19430)                                        and Public Safety Act of 2005
              On September 30, 2007, NTIA awarded an                                     (P.L. 109-171)
              $11,169,402 PSIC grant to the State of Arkansas to           The Digital Television Transition and Public Safety
              enhance interoperable emergency communications.              Act of 2005 authorized NTIA, in consultation with
              The original award period ran from October 1, 2007,          the Department of Homeland Security (DHS), to
              to September 30, 2010. In November 2009, the                 implement the Public Safety Interoperable
              President signed an act extending the award period to        Communications (PSIC) program—a $1 billion
              September 30, 2011, by which time all funds must             one-time, formula-based matching grant program
              be expended. The governor of Arkansas designated             intended to enable public safety agencies to establish
              the Arkansas Department of Emergency Manage­                 interoperable emergency communications systems
              ment (ADEM) as Arkansas’s state administrative               using real-located radio spectrum. NTIA required a
              agency to apply for and administer PSIC funds.               minimum 20 percent matching share from nonfed­
                                                                           eral sources for the acquisition and deployment of
              Our audit covered the award period of October 1,
                                                                           communications equipment, and management and
              2007, through December 31, 2008, during which
                                                                           administration costs.
              time Arkansas claimed total costs of $1,512,347. We
              found that ADEM generally complied with grant                The Implementing Recommendations of the
              terms and conditions. ADEM asserted that all invest­         9/11 Commission Act of 2007 require OIG to
              ments are on schedule to be completed by September           conduct financial audits, over 4 years, of a rep­
              30, 2010.                                                    resentative sample of at least 25 states or territo­
                                                                           ries receiving PSIC grants.



                                                                      36
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 37




              National Telecommunications and Information Administration   March 2010—Semiannual Report to Congress



              Pennsylvania PSIC Grant Award
              No. 2007-GS-H7-0028
              (DEN-19429)

              On September 30, 2007, NTIA awarded a
              $34,190,555 PSIC grant to the Commonwealth of
              Pennsylvania to enhance interoperable emergency
              communications. The governor of Pennsylvania
              designated the Pennsylvania Emergency Manage­
              ment Agency (PEMA) as Pennsylvania’s state
              administrative agency to apply for and administer
              PSIC funds. We audited costs claimed by PEMA to
              determine whether the recipient complied with
              NTIA PSIC grant guidelines and DHS award terms
              and conditions.

              Our audit covered the award period of October 1,
              2007, through December 31, 2008, during which
              time PEMA claimed total costs of $346,850. In gen­
              eral, we found PEMA to be in compliance with
              requirements. The agency asserted it is on track to
              complete the project on time.




                                                                     37
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 38
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 39




                                UNITED STATES PATENT

                               AND TRADEMARK OFFICE


              T
                       he United States Patent and Trademark Office administers the nations’ patent and trademark laws.
                       Patents are granted and trademarks registered under a system intended to provide incentives to invent,
                       invest in research, commercialize new technology, and draw attention to inventions that would other­
              wise go unnoticed. USPTO also collects, assembles, publishes, and disseminates technological information dis­
              closed in patents.



              FY 2009 Financial Statement                                    FY 2009 FISMA Assessment of the
              Audits (FSD-19650)                                             Enterprise UNIX Services System
                                                                             (OAE-19729)
              Independent auditor KPMG found that USPTO’s
              financial statements were fairly presented in all mate­        We found that while this system security plan was
              rial respects and in conformity with U.S. generally            generally adequate, some inaccuracies need to be
              accepted accounting principles. KPMG found no                  addressed. Likewise, security control assessments
              instances of material noncompliance with laws, regu­           were generally adequate but improvements are need­
              lations, or contracts. The audit results indicate that         ed. Our control assessment found some vulnerabili­
              USPTO’s internal control structure facilitates the             ties that require remediation. Despite these
              preparation of reliable financial and performance              deficiencies, the authorizing official received suffi­
              information.                                                   cient information to make a credible, risk-based
                                                                             decision to approve system operation. We recom­
              The IT review found that while USPTO has taken                 mended USPTO resolve the issues we identified,
              positive steps to correct previous findings, there are         utilizing the system’s plan of action and milestones
              still several weaknesses in its IT environment. These          accordingly.
              weaknesses combine to form a significant deficiency
              in USPTO’s IT controls. We requested that USPTO
                                                                             FY 2009 FISMA Assessment of the
              provide an audit action plan to address the report’s
              findings and delineate the actions it plans to take to         Patent Cooperation Treaty Search
              correct its IT vulnerabilities. We also asked that             Recordation System (OAE-19731)
              USPTO provide its rationale or the legal basis behind
              its decision should it choose not to implement                 Although we found minor deficiencies, USPTO’s
              KPMG’s recommendations.                                        certification and accreditation (C&A) process pro­
                                                                             duced sufficient information to enable the authoriz­
                                                                             ing officials to make a credible, risk-based
                                                                             accreditation decision. Our evaluation of the system’s



                                                                        39
v2 OIG SAR March 2010.qxd   5/28/10    8:56 AM   Page 40




              United States Patent and Trademark Office                              March 2010—Semiannual Report to Congress



              security controls also found only minor deficiencies.         On November 20, 2009, the former USPTO
              In order to ensure compliance with FISMA require­             employee and her co-conspirator were each sentenced
              ments, USPTO should resolve the minor deficiencies            to 18 months in prison, followed by three years of
              we reported in our assessment.                                supervised release. They were also ordered to jointly
                                                                            and severally pay $527,478.55 in restitution.
              Former USPTO Employee and
              Co-conspirator Sentenced in                                   Irregularities in refunds being made from the deposit
                                                                            account were first detected by new management in
              $500,000 Embezzlement Scheme                                  USPTO’s Office of Financial Management. They
              In our September 2009 Semiannual Report to                    reported the irregularities to auditors from our Office
              Congress (page 37), OIG’s Office of Investigations            of Audit and Evaluation. An ensuing investigation
              reported that on August 27, 2009, a former USPTO              conducted by our Office of Investigations uncovered
              financial analyst pled guilty on charges of conspiracy        the full extent of the conspiracy and fraudulent acts
              to commit wire fraud in violation of 18 USC §                 which were reported to the U.S. Attorney’s Office for
              1349, in connection with an embezzlement scheme.              the Eastern District of Virginia for prosecution.
              This followed the August 10, 2009, guilty plea of her
              co-conspirator, who was not affiliated with the fed­          Contractor Agrees to Major
              eral government. The former USPTO employee                    Settlement in Defective
              managed an account into which USPTO customers                 Products Case
              deposited funds for the purpose of paying expenses
              incurred in processing their patent and trademark             In August 2006, OIG’s Office of Investigations
              applications. From 1998 to 2005, the former                   received a civil fraud complaint from a whistleblower
              USPTO employee transferred funds from this                    alleging that a large contractor, EMC Corporation,
              account to accounts controlled by the co-conspira­            knowingly provided USPTO with data storage com­
              tor. The former USPTO employee fraudulently con­              puters containing a defective microchip manufac­
              cealed the transfers by making them look like                 tured by a subcontractor. The complaint further
              refund payments to USPTO customers. Her co­                   alleged that the corporation concealed information
              conspirator then paid a portion of the stolen funds           regarding the defect, resulting in service interruptions
              back to her in cash. The former USPTO employee                at USPTO. In October 2009, the contractor and the
              engaged in 32 fraudulent transfers from USPTO                 U.S. Department of Justice reached a settlement
              totaling $534,338.55. Twenty-seven of the transac­            agreement of $3.5 million, plus interest earned. As
              tions, accounting for $451,252.17, involved the               provided by the False Claims Act, the whistleblower
              co-conspirator.                                               was awarded 18 percent of the settlement amount.




                                                                       40
v2 OIG SAR March 2010.qxd    5/28/10   8:56 AM    Page 41




              March 2010—Semiannual Report to Congress                                                                Statistical Data



              STATISTICAL DATA
              Statistical Overview
                TABLES                                                                                                Page
                1. Investigative Statistical Highlights for this Period                                                 41
                2. Audit Resolution and Follow-Up                                                                       42
                3. Audit and Evaluation Statistical Highlights for this Period                                          42
                4. Audits with Questioned Costs                                                                         42
                5. Audits with Recommendations that Funds Be Put to Better Use                                          43
                APPENDIXES
                A. Report Types this Period                                                                             44
                A-1. Performance Audits                                                                                 44
                A-2. Financial Assistance Audits                                                                        44
                A-3. Financial Statements Audits                                                                        45
                A-4. Evaluations and Inspections                                                                        46
                B. Processed Audit Reports                                                                              47
                B-1. Processed Reports with Audit Findings                                                              48

              Table 1. Investigative Statistical Highlights for this Period
                Investigative Activities
                Investigations opened                                                                                   9
                Investigations closed                                                                                   6
                Arrests                                                                                                 0
                Indictments/Informations                                                                                1
                Convictions                                                                                             1
                Personnel actions                                                                                       5
                Fines, settlements, restitution, judgments, and all other criminal, civil and
                administrative recoveries                                                                          $4,027,679
                Allegations Processed
                Hotline complaints processed                                                                           225
                Total complaints, all sources                                                                          266
                Referrals to operating units                                                                           163
                Evaluated but not accepted for investigation or referral                                                94


              Audit Resolution and Follow-Up

              The Inspector General Act Amendments of 1988                    Department Administrative Order 213-5, Audit
              require us to present in this report those audits issued        Resolution and Follow-up, provides procedures for
              before the beginning of the reporting period                    management to request a modification to an
              (October 1, 2009) for which no management deci­                 approved audit action plan or for a financial assis­
              sion had been made by the end of the period (March              tance recipient to appeal an audit resolution determi­
              31, 2010). Seven audit reports remain unresolved for            nation. The following table summarizes modification
              this reporting period (see page 49).                            and appeal activity during the reporting period.


                                                                         41
v2 OIG SAR March 2010.qxd        5/28/10   8:56 AM     Page 42




              Statistical Data                                                               March 2010—Semiannual Report to Congress



              Table 2. Audit Resolution and Follow-Up

                  Report Category                                                       Modifications                          Appeals

                  Actions pending (October 1, 2009)                                             0                                  2
                  Submissions                                                                   0                                  0
                  Decisions                                                                     0                                  2
                  Actions pending (March 31, 2010)                                              0                                  0



              Table 3. Audit and Evaluation Statistical Highlights for this Period

                  Questioned costs                                                                                              $6,434,646
                  Value of audit recommendations that funds be put to better use                                                  5,240,266
                  Value of audit recommendations agreed to by management                                                          1,912,870



              Table 4. Audits with Questioned Costs

                                                                                                           Questioned           Unsupported
                  Category                                                              Number               Costs                 Costs

                  A.    Reports for which no management decision
                        had been made by the beginning of the
                        reporting period                                                   16             $28,133,341             $5,066,779
                  B.    Reports issued during the reporting period                         11                6,434,646             2,497,620
                  Total reports (A+B) requiring a management
                  decision during the period1                                              27              34,567,987              7,564,399
                  C.    Reports for which a management decision
                        was made during the reporting period                               15              13,051,167              4,964,155
                              i. Value of disallowed costs                                                   1,907,522                 56,132
                              ii. Value of costs not disallowed                                            11,143,645              4,908,023
                  D.    Reports for which no management decision
                        had been made by the end of the
                        reporting period                                                   12              21,516,820              2,600,244
              1
               One audit report included in this table is also included among reports with recommendations that funds be put to better use (see
              Table 5). However, the dollar amounts do not overlap.




                                                                              42
v2 OIG SAR March 2010.qxd      5/28/10     8:56 AM      Page 43




              March 2010—Semiannual Report to Congress                                                                             Statistical Data



              Table 5. Audits with Recommendations that Funds Be Put to Better Use

                  Report Category                                                                                Number                Value
                  A.     Reports for which no management decision had been made by the
                         beginning of the reporting period                                                           2             $1,098,843
                  B.     Reports issued during the reporting period                                                  2              5,240,266
                  Total reports (A+B) requiring a management decision during the period1                             4              6,339,109
                  C.     Reports for which a management decision was made during
                         the reporting period                                                                        1                 5,348
                              i. Value of recommendations agreed to by management                                                      5,348
                              ii. Value of recommendations not agreed to by management                                                    0
                  D.     Reports for which no management decision had been made by the
                         end of the reporting period                                                                 3              6,333,761
              1
               One audit report included in this table is also included among reports with questioned costs (see Table 4). However, the dollar
              amounts do not overlap.




              Definitions of Terms Used in the Tables
              Questioned cost: a cost questioned by OIG because of (1) an alleged violation of a provision of a law, regula­
              tion, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
              funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
              (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.
              Unsupported cost: a cost that, at the time of the audit, is not supported by adequate documentation.
              Questioned costs include unsupported costs.
              Recommendation that funds be put to better use: an OIG recommendation that funds could be used more
              efficiently if Commerce management took action to implement and complete the recommendation, including
              (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest sub­
              sidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recom­
              mended improvements related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary
              expenditures identified in pre-award reviews of contracts or grant agreements; or (6) any other savings specifi­
              cally identified.
              Management decision: management’s evaluation of the findings and recommendations included in the audit
              report and the issuance of a final decision by management concerning its response.




                                                                               43
v2 OIG SAR March 2010.qxd        5/28/10   8:56 AM   Page 44




              Statistical Data                                                   March 2010—Semiannual Report to Congress



              Appendix A. Report Types this Period

                Type                                             Number of Reports                   Appendix Number
                Performance audits                                       1                                   A-1
                Financial assistance audits                              3                                   A-2
                Financial statements audits                              6                                   A-3
                Evaluations and inspections                              10                                  A-4
                Total                                                    20



              Appendix A-1. Performance Audit

                                                                         Report            Date            Funds to Be Put
                Report Title                                             Number           Issued            to Better Use
                Office of the Secretary
                Commerce Has Implemented Operations to
                Promote Accurate Recipient Reporting, but
                Improvements Are Needed                               ARR-19847          10.30.09                  0



              Appendix A-2. Financial Assistance Audits

                                                        Report       Date     Funds to Be Put Amount      Amount
                Report Title                            Number      Issued     to Better Use Questioned Unsupported
                National Institute of Standards & Technology
                State of Ohio
                Department of
                Development                           DEN-18604 03.29.10        $1,424,266         $2,237,744          0
                National Telecommunications and Information Administration
                Pennsylvania Public
                Safety Interoperable
                Communications Grant                  DEN-19429 03.17.10             0                 0               0
                Arkansas Public Safety
                Interoperable Communications
                Grant                        DEN-19430 03.22.10                      0                 0               0




                                                                    44
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM   Page 45




              March 2010—Semiannual Report to Congress                                        Statistical Data



              Appendix A-3. Financial Statements Audits

                                                                                        Funds to Be Put
                Report Title                              Report Number   Date Issued     to BetterUse

                Census Bureau

                FY 2009 Financial Statements
                Audit Assessment of Information
                Technology Controls Supporting
                Financial Management Systems              FSD-19651-01      11.9.09            0

                FY 2009 Financial Statements              FSD-19651-02     11.10.09            0

                Office of the Secretary

                FY 2009 Financial Statements
                Audit Assessment of Information
                Technology Controls Supporting
                Financial Management Systems              FSD-19652-01     11.09.09            0

                FY 2009 Special-Purpose
                Financial Statements                      FSD-19652-03     11.30.09            0

                Patent and Trademark Office

                FY 2009 Financial Statements
                Audit Assessment of Information
                Technology Supporting Financial
                Management Systems                        FSD-19650-01     11.09.09            0

                FY 2009 Financial Statements              FSD-19650-02     11.10.09            0




                                                                  45
v2 OIG SAR March 2010.qxd         5/28/10     8:56 AM      Page 46




              Statistical Data                                                       March 2010—Semiannual Report to Congress



              Appendix A-4. Evaluations and Inspections

                                                                                                           Funds to Be Put
                   Report Title                                      Report Number       Date Issued         to BetterUse

                   Census Bureau
                   FY 2009 FISMA Assessment of the Field
                   Data Collection Automation System                  OAE-19728            11.20.09               0
                   2010 Census: Quarterly Report to
                   Congress, December 2009                           OIG-19791-2           12.18.09               0
                   2010 Census: Quarterly Report to
                   Congress, February 2010                           OIG-19791-3           02.16.10               0
                   National Institute of Standards and Technology
                   Missing Audit Reports from
                   NIST ATP Grant Recipients                          ATL-19891            03.31.10               0
                   National Oceanic and Atmospheric Administration
                   FY 2009 FISMA Assessment of the
                   Environmental Satellite Processing Center          OAE-19730            01.06.10               0
                   Review of NOAA Fisheries
                   Enforcement Programs and Operations 1              OIG-19887            01.21.10               0
                   Office of the Secretary
                   Improvements Recommended for
                   Commerce Pre-Award Guidance and
                   NIST and NOAA Processes for
                   Awarding Grants                                    ARR-19841            10.29.09               0
                   More Automated Processing by Commerce
                   Bureaus Would Improve Recovery
                   Act Reporting                                      ARR-19779            12.18.09               0
                   Patent and Trademark Office
                   FY 2009 FISMA Assessment of the
                   Enterprise UNIX Services System                    OAE-19729           11.20.09 0
                   FY 2009 FISMA Assessment of the
                   Patent Corporation Treaty Search
                   Recordation System                                 OAE-19731            11.20.09               0
              1
                  Report issued by the Office of Investigations.




                                                                        46
v2 OIG SAR March 2010.qxd       5/28/10     8:56 AM     Page 47




              March 2010—Semiannual Report to Congress                                                           Statistical Data



              Appendix B. Processed Audit Reports


                   The Office of Inspector General reviewed and accepted 147 audit reports prepared by independent pub­
                   lic accountants and local, state, and other federal auditors. The reports processed with questioned costs,
                   recommendations that funds be put to better use, and/or nonfinancial recommendations are listed in
                   Appendix B-1.

                   Agency                                                                                      Audits

                   Economic Development Administration                                                           49

                   International Trade Administration                                                              1

                   Minority Business Development Agency                                                            1

                   National Institute of Standards and Technology 1                                              31

                   National Oceanic and Atmospheric Administration                                               33

                   National Telecommunications and Information Administration                                      3

                   Multi-Agency                                                                                  25

                   No Commerce expenditures                                                                        3

                   Not identified by agency                                                                        1

                   Total                                                                                        147
              1
                  Includes 27 Advanced Technology Program (ATP) program-specific audits.




                                                                             47
v2 OIG SAR March 2010.qxd        5/28/10   8:56 AM    Page 48




              Statistical Data                                                 March 2010—Semiannual Report to Congress



              Appendix B-1. Processed Reports with Audit Findings

                                                                                 Funds to
                                                                       Date        Be Put     Amount      Amount
               Report Title                          Report Number    Issued   to Better Use Questioned Unsupported

               Economic Development Administration

               City of Los Angeles, CA          ATL-09999-10-3566 11.13.09          0        $1,685,000    1,685,000

               Seneca County Industrial
               Development Agency, NY           ATL-09999-10-3632 11.20.09          0         275,000          0

               City of Richmond, IN             ATL-09999-10-3658 01.20.10          0         300,000          0

               Central Savannah River
               Area Regional
               Development Center, GA           ATL-09999-10-3678 01.20.10          0         424,205          0

               Erie County Industrial
               Development Agency and
               Affiliates, NY                   ATL-09999-10-3669 02.05.10      3,816,000        0             0

               Franklin County
               Community Development
               Corporation, MA       ATL-09999-10-3687 03.11.10                     0          22,963       22,963

               National Institute of Standards & Technology

               QD Vision, Inc., MA              ATL-09999-10-3455 11.20.09          0          12,938       12,938

               SimQuest International
               LLC, MD                          ATL-09999-10-3459 11.13.09          0          28,381          0

               National Oceanic & Atmospheric Administration

               North Pacific Marine
               Science Foundation, WA           ATL-09999-10-3631 11.05.09          0          25,851          0

               Howard University, DC            ATL-09999-10-3578 12.03.09          0         825,029       776,719

               Smithsonian
               Institution, DC                  ATL-09999-10-3603 12.16.09          0         597,535          0




                                                                     48
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM    Page 49




              March 2010—Semiannual Report to Congress                                                              Statistical Data




              Audits Unresolved for More                                    NIST
              Than 6 Months                                                 Manufacturing Extension
                                                                            Partnership Program
              Census Bureau                                                 In our March 2009 Semiannual Report, we discussed
                                                                            our audits of the operations of three centers, located
              Computer & High Tech
                                                                            in South Carolina, Florida, and Massachusetts, that
              Management, Inc.                                              received cooperative agreements under the NIST
              In our September 2005 Semiannual Report (page 14),
                                                                            MEP program. An additional center was audited and
              we reported the results of audits of 2 of the 21 task
                                                                            results reported in our September 2009 Semiannual
              orders for IT services that Computer & High Tech
                                                                            Report. Our audits questioned over $20 million in
              Management, Inc., was providing to Census. We
                                                                            costs claimed. Resolution has proven to be complex,
              sought to determine whether the firm had complied
                                                                            and NIST has not provided us with the initial audit
              with contract terms and conditions and federal regu­
                                                                            resolution proposals. (ATL-18567, ATL-18568,
              lations and had billed Census for work performed in
                                                                            DEN-18135, DEN-18573)
              accordance with specifications of the task order. We
              found that the firm failed to comply with numerous
                                                                            NOAA
              contract and federal requirements, which caused us
              to question more than $10.7 million in direct labor           Alaska Eskimo Whaling Commission
              and other reimbursable costs. We have suspended               As reported in our March 2009 Semiannual Report, a
              audit resolution on this contract audit pursuant to an        single audit review of this NOAA grant questioned
              agreement with Census.                                        costs totaling $66,353 in expenditures that were not
                                                                            adequately documented. We have suspended audit
                                                                            resolution on this grant audit pursuant to an agree­
                                                                            ment with NOAA. (ATL-09999-8-3238)




                                                                       49
v2 OIG SAR March 2010.qxd    5/28/10   8:56 AM    Page 50




              Reporting Requirements                                                   March 2010—Semiannual Report to Congress



              REPORTING REQUIREMENTS
              The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The
              requirements are listed below and indexed to the applicable pages of this report.

                Section                        Topic                                                                       Pages

                4(a)(2)                        Review of Legislation and Regulations                                         50
                5(a)(1)                        Significant Problems, Abuses, and Deficiencies                              19-40
                5(a)(2)                        Significant Recommendations for Corrective Action                           19-40
                5(a)(3)                        Prior Significant Recommendations Unimplemented                               50
                5(a)4                          Matters Referred to Prosecutive Authorities                                   41
                5(a)(5) and 6(b)(2)            Information or Assistance Refused                                             50
                5(a)(6)                        Listing of Audit Reports                                                    44-48
                5(a)(7)                        Summary of Significant Reports                                              19-40
                5(a)(8)                        Audit Reports—Questioned Costs                                                42
                5(a)(9)                        Audit Reports—Funds to Be Put to Better Use                                   43
                5(a)(10)                       Prior Audit Reports Unresolved                                                49
                5(a)(11)                       Significant Revised Management Decisions                                      51
                5(a)(12)                       Significant Management Decisions with which OIG Disagreed                     51



              Section 4(a)(2): Review of Legislation                          recommendation described in previous semiannual
              and Regulations                                                 reports for which corrective action has not been com­
              This section requires the inspector general of each             pleted. Section 5(b) requires that the Secretary trans­
              agency to review existing and proposed legislation              mit to Congress statistical tables showing the number
              and regulations relating to that agency’s programs              and value of audit reports for which no final action
              and operations. Based on this review, the inspector             has been taken, plus an explanation of the reasons
              general is required to make recommendations in the              why recommended action has not occurred, except
              semiannual report concerning the impact of such leg­            when the management decision was made within the
              islation or regulations on the economy and efficiency           preceding year.
              of the management of programs and operations
              administered or financed by the agency or on the pre­           To include a list of all significant unimplemented rec­
              vention and detection of fraud and abuse in those               ommendations in this report would be duplicative.
              programs and operations. Comments concerning leg­               Information on the status of any audit recommenda­
              islative and regulatory initiatives affecting Commerce          tions can be obtained through OIG’s Office of Audit
              programs are discussed, as appropriate, in relevant             and Evaluation.
              sections of the report.
                                                                              Sections 5(a)(5) and 6(b)(2): Information
              Section 5(a)(3): Prior Significant                              or Assistance Refused
              Recommendations Unimplemented                                   These sections require a summary of each report to
              This section requires identification of each significant        the Secretary when access, information, or assistance



                                                                         50
v2 OIG SAR March 2010.qxd   5/28/10   8:56 AM    Page 51




              March 2010—Semiannual Report to Congress                                                     Reporting Requirements



              has been unreasonably refused or not provided. There          made during the reporting period. Department
              were no instances during this semiannual period and           Administrative Order 213-5, Audit Resolution and
              no reports to the Secretary.                                  Follow-up, provides procedures for revising a man­
                                                                            agement decision. For financial assistance audits,
              Section 5(a)(10): Prior Audit Reports                         OIG must concur with any decision that would
              Unresolved                                                    change the audit resolution proposal in response to
              This section requires a summary of each audit report          an appeal by the recipient. The decisions issued on
              issued before the beginning of the reporting period           the two appeals of audit-related debts were finalized
              for which no management decision has been made                with the full participation and concurrence of OIG.
              by the end of the reporting period (including the
              date and title of each such report), an explanation of        Section 5(a)(12): Significant
              why a decision has not been made, and a statement             Management Decisions with Which
              concerning the desired timetable for delivering a             OIG Disagreed
              decision on each such report. There were one                  This section requires information concerning any sig­
              NOAA, four NIST, and two Census reports more                  nificant management decision with which the inspec­
              than 6 months old.                                            tor general disagrees. Department Administrative
                                                                            Order 213-5 provides procedures for elevating unre­
              Section 5(a)(11): Significant Revised                         solved audit recommendations to higher levels of
              Management Decisions                                          Department and OIG management, including their
              This section requires an explanation of the reasons           consideration by an Audit Resolution Council.
              for any significant revision to a management decision         During this period no audit issues were referred.




                                                                       51
Acronyms and Abbreviations                                      March 2010—Semiannual Report to Congress



ACRONYMS AND ABBREVIATIONS 

ADEM            Arkansas Department of                  NASA           National Aeronautics and Space
                Emergency Management                                   Administration
ATP             Advanced Technology Program             NIST           National Institute of Standards and
BIS             Bureau of Industry and Security                        Technology

BTOP            Broadband Technology                    NOAA           National Oceanic and Atmospheric
                Opportunities Program                                  Administration

C&A             certification and accreditation         NMFS           National Marine Fisheries Service

CBS             Commerce Business System                NPOESS         National Polar-orbiting Operational
                                                                       Environmental Satellite System
COR             contracting officer’s
                representative                          NPP            NPOESS Preparatory Project

COTR            contracting officer’s technical         NRFU           Nonresponse Follow-up
                representative                          NTIA           National Telecommunications and
DAPPS           Decennial Applicant, Personnel,                        Information Administration
                and Payroll System                      OAM            Office of Acquisition Management
DRIS            Decennial Response Integration                         (Department of Commerce)
                System                                  OIG            Office of Inspector General
EDA             Economic Development                    OLE            Office of Law Enforcement
                Administration                                         (NMFS)
ESA             Economics and Statistics                OMB            Office of Management and Budget
                Administration                          PBOCS          Paper-based Operations Control
FDA             Food and Drug Administration                           System
FDCA            Field Data Collection Automation        PEMA           Pennsylvania Emergency
FISMA           Federal Information Security                           Management Agency
                Management Act                          PSIC           Public Safely Interoperable
GCEL            Office of General Counsel for                          Communications
                Enforcement and Litigation              PSP            Partner Support Program
                (NOAA)                                  Recovery Act   American Recovery and
GSA             General Services Administration                        Reinvestment Act
GOES-R          Geostationary Operational               RRB            Risk Review Board
                Environmental Satellite-R Series                       (Census Bureau)
HCHB            Herbert C. Hoover Building              USHCN          U.S. Historical Climatology
IG              Inspector General                                      Network

IT              information technology                  USPTO          United States Patent and
                                                                       Trademark Office
JPSS            Joint Polar Satellite System
LCO             local Census office
MEP             Manufacturing Extension
                Partnership




                                                   52
OIG SAR covers.qxd     5/28/10      8:58 AM      Page 2




                                          Office of Inspector General

               Budget and Administration                              Inspector General
                     Human Resources                                       Deputy
                 Information Technology                               Inspector General
                                                                      Associate Deputy
                                                                      Inspector General
                                                                         Chief of Staff




                                   Office of Audit
                                   and Evaluation




                                                                       Economic and
          Systems Acquisition
                                            Audits                  Statistical Program
            and IT Security
                                                                         Assessment




         OIG Contacts                                                                     OIG Hotline
         Inspector General . . . . . . . . . . . . . . . . . . 202.482.4661               Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
         Office of Audit and Evaluation . . . . . . . . 202.482.2754                                                                                       or 800.424.5197
         Office of Investigations . . . . . . . . . . . . . . 202.482.0300                TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
                                                                                                                                                           or 800.854.8407
         Office of Counsel . . . . . . . . . . . . . . . . . . 202.482.5992
                                                                                          E-mail . . . . . . . . . . . . . . . . . . . . . . . . . . . . hotline@oig.doc.gov
         Legislative and Public Affairs . . . . . . . . . 202.482.4106

         More Information
         Visit www.oig.doc.gov to learn more about our activities, view or download reports and testimony, and sign up for e-mail alerts.
         E-mail website comments to oigweb@oig.doc.gov.
OIG SAR covers.qxd   5/28/10   8:58 AM   Page 1
